<html>
<title> - PAKISTAN AT THE CROSSROADS; AFGHANISTAN IN THE BALANCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
         PAKISTAN AT THE CROSSROADS; AFGHANISTAN IN THE BALANCE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2007

                               __________

                           Serial No. 110-173

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov




                   U.S. GOVERNMENT PRINTING OFFICE
50-110 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2007....................................     1
Statement of:
    Boucher, Richard A., Assistant Secretary of State, Bureau of 
      South and Central Asian Affairs............................    10
Letters, statements, etc., submitted for the record by:
    Boucher, Richard A., Assistant Secretary of State, Bureau of 
      South and Central Asian Affairs, prepared statement of.....    15
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     9
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


         PAKISTAN AT THE CROSSROADS; AFGHANISTAN IN THE BALANCE

                              ----------                              


                        THURSDAY, JULY 12, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Higgins, Yarmuth, 
Braley, Cooper, Van Hollen, Hodes, Shays, Burton, Platts, 
Duncan, and Turner.
    Staff present: Dave Turk, staff director; Andrew Su and 
Andy Wright, professional staff members; Davis Hake, clerk; A. 
Brooke Bennett, minority counsel; and Benjamin Chance, minority 
clerk.
    Mr. Tierney. Good morning. As a quorum is present for our 
purposes here this morning, the Subcommittee on National 
Security and Foreign Affairs hearing entitled, ``Pakistan at 
the Crossroads; Afghanistan in the Balance,'' will come to 
order.
    I ask unanimous consent that the chairman and ranking 
minority member of the subcommittee make opening statements. 
Without objection, that is so ordered.
    Also, I ask unanimous consent that the hearing record be 
kept open for 5 business days so that all members of the 
subcommittee may be allowed to submit a written statement for 
the record. Without objection, so ordered.
    I ask unanimous consent that the following written 
statement and materials be placed in the hearing record: that 
of the Honorable Richard A. Boucher, Assistant Secretary of 
State, Bureau of South and Central Asian Affairs. Without 
objection, so ordered.
    For purposes of this hearing, I would like to just put some 
remarks on the record and then invite Mr. Shays to do the same, 
and then we would like to go directly to our witness who has 
been kind enough to join us here this morning.
    Today we are continuing our sustained oversight of U.S. 
policy toward Pakistan. We do it for two fundamental reasons: 
first, that Pakistan has been and remains absolutely vital for 
the United States' national security. The 9/11 Commission 
stressed, ``It is hard to overstate the importance of Pakistan 
in the struggle against Islamic terrorism.'' More recently, 
Fareed Zakaria, among others, has reiterated that Pakistan 
should be considered the ``central front in the war on 
terror.''
    Second, Pakistan finds itself at the most important 
crossroads it has faced in years, and it is absolutely vital 
that we in the U.S. Government seize this opportunity to ask 
ourselves whether current U.S. policy needs to be reassessed in 
order to best ensure long-term U.S. national security 
interests.
    Pakistan faces this crossroads as it rounds the bend into 
upcoming national elections. The crossroads is represented by 
two ongoing dramas: one, the full-blown judicial crisis 
precipitated by President Musharraf's suspension of Chief 
Justice Iftikhar Chaudhry; and two, the fallout from the bloody 
conclusion to the tense standoff with extremists at Islamabad's 
Red Mosque.
    Protests of President Musharraf's suspension of the Chief 
Justice are populated by lawyers and proponents of a robust 
civil society, judicial independence, and democratic rule of 
law, while those rising in support of the Red Mosque are 
populated by extremists and jihadis who wish to impose a 
repressive view of Islam on all Pakistanis.
    This subcommittee's May hearing focused on the links 
between Pakistan's rising tide of extremism and its relation to 
a failing Pakistani education system. The Red Mosque is merely 
a stark symbol of the deeper, more pervasive problem in 
Pakistan, where there are far more jihadists, extremist 
madrassas, Al Qaeda operatives, Taliban safe havens, and 
international terrorist training camps than Pakistani 
government officials are willing to admit. In fact, just 2 
months ago our own State Department concluded, ``Pakistan 
remains a major source of Islamic extremism and a safe haven 
for some top terrorist leaders.''
    It is vitally clear that extremism in Pakistan is of 
immediate concern to the United States' interests, including 
its having fueled a resurgence of violence in Afghanistan. The 
9/11 Public Disclosure Project warned that President Musharraf, 
``has not shut down extremist-linked madrassas or terrorist 
camps. Taliban forces still pass freely across the Pakistan-
Afghanistan border and operate in Pakistani tribal areas.'' And 
these border groups gained political legitimacy last year when 
General Musharraf signed a series of dubious peace deals with 
the Pakistani Taliban.
    Pakistan's intensifying extremism also has consequences 
that reach far beyond Afghanistan. The July 7, 2005, London 
subway terrorist bombings and a later incident involving 
fertilizer bombs both involved terrorists who had attended 
Pakistani madrassas and training camps.
    Due to President Musharraf's, some would say, tepid 
cooperation in controlling extremism and disrupting terror 
networks, along with signs that these crises have compromised 
his grip on power, there is a growing chorus calling for a 
significant reevaluation of U.S. policy toward Pakistan.
    This past Monday, alone, critical editorials ran in both 
the Washington Post and the New York Times. The Times noted, 
``America needs to maintain friendly relations with Pakistan. 
This is exactly why Washington should hasten to disentangle 
itself from the sinking fortunes of General Pervez Musharraf, a 
blundering and increasingly unpopular military dictator and a 
halfhearted strategic ally of the United States.''
    The Washington Post editorial stressed their view of the 
administration's policy this way: ``Pakistan's Pervez Musharraf 
is running out of supporters--except in Washington.''
    Today's hearing presents an opportunity to explore a whole 
slew of critical questions with the administration's point 
person on Pakistan.
    For example, where does Pakistan's cooperation against 
international terrorism stand, especially in light of the 
spread of jihadi extremism in Pakistan, and what impact does 
this have on U.S. forces and efforts in Afghanistan and 
elsewhere in the world?
    Is our current aid package to Pakistan, one in which we are 
providing at least 10 times more for military aid than for 
basic education assistance, in the best long-term interests of 
United States' national security?
    What should United States' policy be with respect to 
Pakistan's civil society, in light of the escalating crisis 
following President Musharraf's dismissal of the Chief Justice 
of Pakistan's Supreme Court?
    And what is the United States doing to help ensure that the 
upcoming Pakistani national elections occur and are free and 
fair, from voter registration to vote tally? And what are the 
consequences for President Musharraf if they are not?
    The people of Pakistan stand at a crossroads and U.S. 
efforts in Afghanistan and the world's success against 
international terrorism hang in the balance.
    This Congressman feels that the United States needs to send 
a powerful message at this critical juncture that we stand 
shoulder-to-shoulder with our brothers and sisters in Pakistan 
in their pursuit of education for their children and democracy 
for their country.
    It has often been said that Pakistan is a place of 
breathtaking complexity. It is in part because of this that our 
long-term national security interests are best served by 
forging bonds with the Pakistani people and not necessarily 
with any one particular leader.
    I am pleased that our State Department's Pakistan point 
person is here with us today in order to present the 
administration's viewpoint and to engage in what I hope will be 
a robust discussion.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T0110.001
    
    [GRAPHIC] [TIFF OMITTED] T0110.002
    
    [GRAPHIC] [TIFF OMITTED] T0110.003
    
    Mr. Tierney. Mr. Shays.
    Mr. Shays. Today the subcommittee again discusses serious 
issues involving Pakistan, Afghanistan, and the broader region. 
Mr. Chairman, I congratulate you on holding such a timely 
hearing--timely in light of all eyes having turned toward 
Islamabad with last week's military action against nearly 2,000 
extremists holed up in the Red Mosque.
    These dynamic developments--and in Pakistan's capital city 
nonetheless--underscore our need to understand the forces 
threatening the peace and stability of our allies in the South 
Asia region and allies across the globe.
    I look forward to today's hearing as an opportunity to 
discuss first the effects of extremism in Pakistan; second, the 
effects of U.S. aid to Pakistan; third, the prognosis for 
Pakistan's forthcoming elections, and; fourth, the implications 
for Pakistan's civil society and President Musharraf's 
attempted dismissal of the Pakistani Chief Justice.
    Subcommittee staff recently met with a delegation of 
provincial leaders from the Afghan side of the Pakistan-Afghan 
border. These Afghani leaders expressed hope for a peaceful 
Afghanistan, but stated peace and development cannot be 
achieved without security. Security cannot be achieved without 
stricter border enforcement. And strict border enforcement 
cannot be achieved without cooperation from the Pakistani 
government and stronger action by President Musharraf. These 
are strong and insightful sentiments expressed by the Afghani 
leaders, especially as they are most directly affected by 
Pakistani action or inaction.
    Some strongly question the will and inclination of 
President Musharraf to stand up to the challenges faced by 
Pakistan. We hear President Musharraf is thwarting the role of 
the judiciary. There are indications he is thwarting democracy 
by not allowing political candidates to return to Pakistan to 
stand for election.
    President Musharraf may be turning a blind eye toward the 
growing ranks of Taliban and Al Qaeda in Pakistan, lacking the 
ability or will to crack down on terrorist training camps in 
western Pakistan, and stopping the proliferation of jihadists 
moving across the Pakistan-Afghan border, and attacks on 
Coalition forces and Afghan civilians. In fact, some say with 
confidence that Osama bin Laden is currently in a training camp 
near the Pakistani-Afghan border not far from Peshawar, in 
fact, yet somehow President Musharraf has not been able to find 
it.
    So what of all of this is true? If any of it is true, how 
does the United States justify continuing its seemingly 
unconditional support for Musharraf's government? And how do we 
in Congress justify to the American people writing checks for 
billions of dollars to a regime that may not be the partner 
against terrorism the United States needs it to be but may 
actually be hurting national security interests of the United 
States and our allies? While many inside and outside Pakistan 
question President Musharraf's policies, Pakistan remains a 
strategic U.S. partner in the struggle against terrorism, and 
we should not forget Pakistan has been a strong supporter and 
ally to the United States.
    That said, our support cannot be unconditional. We look 
forward to getting answers to some basic questions that go to 
the heart of protecting the security of this Nation and her 
allies, the safety of the United States and Coalition forces 
serving in Afghanistan, and peace and stability around the 
world.
    Thank you.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T0110.004
    
    Mr. Tierney. Thank you, Mr. Shays.
    We will now receive testimony from our witness that is with 
us here today. I want to begin by introducing the witness. I 
won't go into the long resume. I think most people are familiar 
with it, but it is a long and distinguished career as a public 
servant in Foreign Affairs, and I appreciate that, and we all 
do. I would like to welcome Ambassador Richard A. Boucher, 
Assistant Secretary of State for the Bureau of South and 
Central Asian Affairs.
    Mr. Boucher, as you know, it is the policy of this 
subcommittee to swear you in before you testify, so I ask you 
to please stand and raise your right hand.
    If any other person is going to be assisting you in 
testimony today, we would ask them also to stand.
    [Witness sworn.]
    Mr. Tierney. I am going to suggest, Mr. Boucher, that you 
can recognize that your written remarks are already on the 
record and will be incorporated in there. Please feel free to 
either reiterate them or to speak in an abbreviated fashion. We 
have 5 minutes generally for the opening statement. We are 
going to be liberal with that because of the complexity of the 
topic, but with some mindfulness, allowing Members at some 
point to be able to get some questions in.
    Thank you, sir.

STATEMENT OF RICHARD A. BOUCHER, ASSISTANT SECRETARY OF STATE, 
           BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS

    Mr. Boucher. Thank you, Mr. Chairman, Mr. Shays, other 
members of the subcommittee. It is a great pleasure to be here 
today, and I thank you for holding a hearing that is both 
topical and timely. I appreciate the effort that you all put 
into supporting and working with Pakistan and the travel that 
you have made out there to help further our policy goals.
    I would like to give a sort of abbreviated introduction, 
because I am sure that with the breathtaking complexities that 
you referred to, that we will probably get to a lot of 
different things during the course of questions. But if I can, 
I would like to lay out sort of the basic framework of how we 
see Pakistan and what we are doing there.
    As you noted, Pakistan is a vital ally to us in a very 
broad variety of ways. Our goal is to see that Pakistan 
succeeds as a democratic nation, a prosperous people, and a 
moderate Moslem society.
    First of all, Pakistan is vital to the war on terror. We 
all need to do everything we can to prevent attacks that could 
come from this part of the world.
    Second of all, Pakistan is vital to the fight in 
Afghanistan. We all know we won't have stability in Afghanistan 
unless Pakistan is stable, and vice versa. The militancy, the 
extremism can move both ways across the border, and that is 
something that leaders in both Pakistan and Afghanistan 
recognize.
    Third, in a more long-term, strategic way, Pakistan is 
vital to opening up the flow of people, energy, ideas, and 
trade between South and Central Asia. That is a strategic 
change that can reverse hundreds of years of history and open 
up opportunities for the countries of Central Asia, as well as 
South Asia.
    We have and will have a long and very enduring strategic 
relationship with Pakistan, to work together for its success in 
all these areas, but achieving our goals in Pakistan is going 
to take time.
    So how can we help Pakistan succeed politically, 
economically, and militarily? I talk about the four E's--
education, economy, energy, and elections.
    First, we are supporting the renewal of Pakistan's public 
education system. If you look at all the various money we put 
in through project assistance, through the Fulbright program, 
through their own budget, it is well over $100 million a year 
that we put into the reform and expansion of education in 
Pakistan. That is a small part of their own efforts to reform 
and expand their education system. They have, I think, gone 
from $1.3 billion a year on education from the Federal budget 
in 2003 to about $2.3 billion a year spent in education from 
their own Federal budget. Our assistance helps support that.
    Second is the reform and expansion of the economy. The 
economy is growing at 6, 7 percent a year, based on open 
investment climate, open economy, and that is doing quite well. 
We want to support and continue that.
    The third is helping them support the diversification of 
their energy supplies. One of the problems that Pakistan faces, 
particularly this year, is called load shedding. It is 
basically brownouts, cutting in power to a lot of people. That 
is one of the things that you see a lot of comment on in the 
press and in politics. We are trying to work with the 
government, work with other nations to bring energy down from 
the north in the form of electricity from Tajikistan and other 
places, as well as to help them develop new sources of energy 
in coal or alternate energy systems.
    The fourth E is elections. Pakistan is poised now for a 
peaceful transition this year from military rule to civilian 
government. We are doing everything we can to support a free 
and fair election. We put about $20 million this year into 
supporting the Election Commission doing basic poll watcher 
training, political parties training, things like that, and we 
have been very active and outspoken in pushing for an open 
election and trying to help look at some of the areas where 
they can do better in terms of making sure that everybody has a 
choice, and that the choices of voters in Pakistan are 
respected.
    We have also made clear we think this election is important 
for the body politic of Pakistan, not just for the choices the 
people have, but in order to form a more stable, moderate 
center to Pakistani politics. We have tried to encourage that, 
for the moderates to come together at the center so that they 
are better poised to fight extremist elements in this society.
    That is the fifth E, which is the danger, and that is 
extremism that afflicts Pakistan. It is a threat to the people 
of Pakistan. It is a threat to the national goals of 
modernizing Pakistan. It has manifest itself in a number of 
ways, but let me start with the tribal areas.
    Tribal areas of Pakistan have never been governed by the 
same arrangements as the rest of the country. Going back to 
British days, these were covered under sort of hands-off 
arrangements, then during the modern period those arrangements 
were never changed. So the government doesn't have the full 
authority and writ in those places. They operate through agents 
and through tribes.
    Nonetheless, the government is interested in trying to 
bring these places into the national system, into the national 
economy, one of the reasons being to give people alternate ways 
of earning a living than smuggling and picking up guns. So they 
have developed a very comprehensive development plan for the 
tribal areas. The Pakistan government is going to put $100 
million a year for 10 years into the development of these 
areas, and we have told them we will come up with $150 million 
a year for the next 5 years to support the economic development 
of the tribal areas.
    In addition, we are trying to open up some economic 
opportunity for the border areas of Pakistan and Afghanistan, 
and have said we are going to propose to the Congress 
reconstruction opportunity zones. We hope that there will be a 
legislative opportunity for that in the coming months, and we 
hope that Members will support that legislation when it 
appears, because it is, again, the idea that if you can have 
economic development in these regions you can use the economic 
development to bring people into the national economy and to 
get them to take up different occupations than the ones many of 
the young men there have been following.
    The second big thing going on in the tribal areas has been 
the security efforts. Now, Pakistan, as I said, has been a 
strong ally in the fight against terrorism. They have captured 
more Al Qaeda than any country in the world, lost more people 
in doing that. They have been key to the efforts that have been 
made over the last 5 years.
    You have also seen perhaps, over the last 6 to 9 months, 
more of the focus on the tribal areas of Pakistan, the border 
areas of Pakistan. And, indeed, they have had a number of 
successes. Several major Taliban leaders have been captured or 
killed this year so far, Molaz Mani in January and Mullah 
Obadullah, Muladu Dulalang. Some of these gentlemen were killed 
in Afghanistan, but these were all joint efforts with Pakistan 
that led to the elimination of some of the top Taliban leaders 
who have been operating from Pakistan to support the insurgency 
in Afghanistan.
    The addition you saw earlier this year, the tribal leaders 
with some support from the government turned on what they call 
the Uzbeks, some of the foreign militants who have been in 
these areas associated with Al Qaeda, engaging in trade and 
engaging in bombing and engaging in fighting alongside the 
Taliban, and hundreds of those people were expelled from the 
tribal regions this year with the support of the government.
    The government has now made clear to the tribes that all 
the foreign elements, the foreign militants, are a danger to--
those areas are a danger to Pakistan and need to be expelled, 
and you have seen very strong warnings from President Musharraf 
about 2 weeks ago, from Governor Orakzai, the Governor of 
Northwest Region, in recent days warning the tribes that they 
need to expel the foreigners and not allow the Taliban to cross 
the border or to cross into the settled areas of Pakistan. That 
has been a big concern throughout Pakistan, that the Taliban 
are somehow trying to expand the heir influence in the settled 
areas.
    So you have seen steps that the government has taken in 
terms of moving troops into the region, putting up better 
checkpoints near the borders. They have built more border 
posts. They have equipped the people there better, and we have 
tried to support that and will try to support that as we go on.
    And the other manifestation of extremism that we have seen 
the government deal with is the Red Mosque controversy. I 
looked it up on the internet. This Mosque was founded in 1965. 
It really grew over the last 20 years into a major center for 
extremist views, extremist ideologies, and has been accused 
over the last year to many attacks, abductions, forays against 
policemen or people in society, and really has led to, you 
might say, a popular backlash. A lot of Pakistanis see this 
activity, a lot of Pakistanis have seen the activity of the 
Taliban in some of the settled areas, have really risen up and 
said no, you know, we want video stores, we want barber shops, 
we want to have a normal, modern life.
    The government tried to contain this problem for a long 
time, was very reticent about going after the Mosque or going 
into the Mosque because of the large numbers of women and 
children who were there, but they found in the last couple of 
weeks that they were not able to do that any more, and because 
the militants were coming out and attacking policemen and 
others and trying to seize weapons, so the government did 
react. They have spent the last 9 days, I think it is, in a 
military operation to clear the place out, and it looks like it 
is pretty much over today.
    There was some loss of life. We don't yet know the final 
numbers on how many people might have been killed in the 
operation, some soldiers, some militants inside the Mosque, but 
I would say that, considering the difficulty of the operation, 
the scope of the operation, and the refusal of the people 
inside to negotiate and lay down their arms and come out 
peacefully, the government did act with relative restraint and 
care as they conducted this operation.
    Let me say again, Mr. Chairman, these are all elements in 
stabilizing Pakistan. Everything from education and energy and 
elections to dealing with the problems of extremism, they are 
all part of helping Pakistani people achieve better lives in a 
more modern society.
    This is the direction that President Musharraf is leading 
the nation, and we are proud to work with him. It is a 
fundamental direction that is important to us and important to 
him and important to the Pakistani people, and we work with the 
government, we work with the people, we work with people, civil 
society, political parties who want to lead Pakistan in this 
direction.
    If they succeed, Pakistan can not only be a stable anchor 
for the region, prosperous nation for its people, but it can 
also be a model to others in the developing world, particularly 
in Moslem countries. So it is important that we help Pakistan 
succeed, especially in making the transition this year to 
civilian government and to a democratic government for its 
country.
    As I said at the beginning, I am pleased to see the 
interest of Members of Congress and very happy to be able to 
work with Congress as we go forward in trying to achieve these 
goals, so thank you very much, Mr. Chairman, for your time. I 
would be glad to take questions.
    [The prepared statement of Mr. Boucher follows:]

    [GRAPHIC] [TIFF OMITTED] T0110.005
    
    [GRAPHIC] [TIFF OMITTED] T0110.006
    
    [GRAPHIC] [TIFF OMITTED] T0110.007
    
    [GRAPHIC] [TIFF OMITTED] T0110.008
    
    [GRAPHIC] [TIFF OMITTED] T0110.009
    
    [GRAPHIC] [TIFF OMITTED] T0110.010
    
    Mr. Tierney. Thank you, Mr. Ambassador. We appreciate your 
comments and your willingness to have a dialog with us.
    I am going to start. Mr. Shays and I were talking, and his 
suggestion, if there is no objection, we might do 10 minute 
rounds of questioning, unless anybody has a pressing engagement 
elsewhere. Sometimes, as you know, Ambassador, we have other 
committees going on at the same time.
    Mr. Boucher. I do.
    Mr. Tierney. I will take the liberty of starting, if I may.
    Ambassador, do you think that we have sufficiently broad 
and deep enough ties to Pakistan to maintain a strategic 
relationship with that country if President Musharraf were to 
exit the scene? What are we doing specifically to facilitate 
ties directly with the Pakistani people, and what else should 
we be doing?
    Mr. Boucher. Let me say I think we do have very broad ties 
in Pakistan to people throughout the society. We know people 
all over the country. We have consulates in Lahore, Kashower, 
Karachi. We have people who worked down in Quetta, largely in 
drug enforcement missions, but they work with local authorities 
down there. Whenever I travel there I meet with a wide variety 
of people, from the political parties of Pakistan--I have met 
with people from all the political parties of Pakistan, and 
these are, in fact, regular contacts of our embassy.
    We certainly think the fundamental direction that President 
Musharraf has been leading Pakistan is one that is compatible 
with our goals and, frankly, compatible with the goals of the 
majority of the Pakistani people, but we have very broad 
outreach to all segments of society. We have been very involved 
with the development of civil society. We have close ties with 
women's groups, with academics, with legal people in the legal 
profession, some of whom are now protesting, and politicians of 
all stripe. So we do try to make sure that we have very broad 
contacts there.
    Mr. Tierney. Thank you. I want to give you a quote of the 
author Ahmed Rashid, who I think you are familiar with, ``To 
spook the west into continuing to support him, Musharraf 
continues to grossly exaggerate the strength of the Islamic 
parties that he warns might take over his nuclear-armed 
country. In fact, the United States would be far safer if it 
pushed for a truly representative Pakistani government that 
could marginalize the jihadists rather than placing all its 
eggs in Musharraf's basket.''
    Do you agree with that statement? If not, why not?
    Mr. Boucher. I think he is totally wrong. I think he is 
wrong in his characterizations. I think his policy prescription 
is exactly right, but I think that was the article that he 
mentioned my name in quite a few times, and, frankly, a half a 
dozen things in there are just flat out wrong.
    We don't put all our eggs in one basket. We do support 
moderation and we don't--I have never heard Musharraf or anyone 
else exaggerate the strength of the Islamist parties. Most of 
the people that I have talked to in Pakistani politics, whether 
they are in government parties or other ones, think that 
because of the distortions of the 2002 elections the Islamist 
parties were able to actually gain more seats than they would 
get and will get in a free and fair election. We will 
ultimately see what the voters decide.
    There have been some bi-elections, like the one up in 
Bajaur, where the Islamist parties didn't do that well.
    So I think the contention is not made. The idea that we 
should push for a more centrist political orientation in 
Pakistan and work with the parties to try to encourage that is 
a correct observation, but, in fact, that is what we do, and 
that is what I said in my testimony we do.
    Mr. Tierney. I am encouraged to hear you say things along 
that line. I happen to agree that if you have a legitimate 
elected government under free and fair elections, the 
legitimacy is going to better empower you to deal with 
extremism. I think that is why it is important.
    Looking at the election situation, I want to ask you if you 
have reviewed the National Democratic Institute's USAID funded 
review of preliminary voters list. I assume that you have.
    Mr. Boucher. Yes.
    Mr. Tierney. So what should we do regarding the finding? 
And I am going to go through basically a number of these. One 
finding that, based on a statistically significant sample size, 
up to 13 of 52 million entries of the voter polls' rolls may be 
duplicates or incorrect. What should we do about the fact that, 
using that same sample size, up to 16 million eligible voters 
are yet to be registered? What should we do with regard to the 
finding that the voter rolls contain vastly fewer numbers than 
previous elections on a scale suggesting that the reduction 
cannot be attributed to the de-duplication, alone?
    These are serious issues. When I hear you speak about 
making sure that the votes are open and transparent, no 
disagreement there; but tallying the votes on election day is 
only one part of it. If we don't make sure that they have a 
list over there from which they are working that enables 
everybody to be registered that should be registered, that 
doesn't put up poll taxes or other barriers to get people, I 
think we are in for some difficulty there.
    So on top of asking whether or not you read that poll and 
respond to that, let me also ask you if you have read former 
Prime Minister Benazir Bhutto's June letter in which she laid 
out, I think, about 10 different issues that were significant, 
and your reaction to that, as well.
    Mr. Boucher. Yes, sir, I have looked at the National 
Democratic Institute report. I have seen Former Prime Minister 
Bhutto's letter. Her party also did a very detailed and 
extensive analysis of the 2002 election and a lot of the 
problems that they saw there, and we have looked at that. We 
have also looked at other reports on previous elections and 
what needed to be corrected. So, you know, there are things in 
there, basic things like transparent ballot boxes, that they 
said, you know, really were needed, and that is one of the 
things that we are paying for in Pakistan is to get them 
transparent ballot boxes, which are harder to stuff.
    So we have tried to take to heart all those things. More 
important, I think, is we have tried to really encourage the 
Election Commission to take those things seriously and to look 
at all these specifics and deal with them.
    When I was in Pakistan last time, I met again with the 
Election Commissioner to talk to him about these things. The 
voter rolls is, indeed, an issue. First of all, everybody 
thinks there was a lot of duplication on the voter rolls, and, 
second of all, everybody thinks there are a lot of people left 
out. So at one point you have to reduce the duplication, but 
you have to register all the unregistered people.
    There were issues over ID cards that seem to have been 
settled, but really the parties need to be able to go through 
these lists and make sure that they are accurate and check 
their voters, check their precinct voters, and check for 
duplications.
    Mr. Tierney. But if I can interrupt, that is not being 
done. I mean, clearly as recently as yesterday, conversation 
with people over there that is not being done and there is 
still considerable concern about that.
    Mr. Boucher. It is being done in some ways and not others. 
The voting lists are now published at election centers. There 
are display centers where the voter lists are on display in a 
particular precinct. I went in Quetta to one of those display 
centers at a school, and they have them there, and anybody can 
come in and look and make sure my name is on and make sure 
other names aren't on five times.
    To do that in a nation of 50 to 70 million voters is pretty 
hard, and particularly when you are doing across places, and so 
we have pushed, encouraged the Election Commission to make 
these lists available in CD form and computerized form so the 
parties can go through them more thoroughly and use modern 
technology to try to identify lapses.
    At this point, you know, they talk about it. They haven't 
done it. We keep pushing.
    Mr. Tierney. Well, I hope that you will continue to keep 
pushing----
    Mr. Boucher. Yes.
    Mr. Tierney [continuing]. Because I think those elections 
are not going to be able to be termed free and fair----
    Mr. Boucher. Yes.
    Mr. Tierney [continuing]. Unless we get that resolved and, 
given all the money that USAID and the United States is putting 
into the elections, we are going to be the ones that are going 
to be arguably----
    Mr. Boucher. Yes.
    Mr. Tierney [continuing]. Complicit, or at least people are 
going to say that we are complicit----
    Mr. Boucher. Yes.
    Mr. Tierney [continuing]. In not having made that happen.
    Mr. Boucher. Can I add one more thing?
    Mr. Tierney. Sure.
    Mr. Boucher. There is a lot of discussion right now in 
Pakistan among the political parties about having all the 
parties get together and agree on basic code of conduct and 
rules, guidelines for the election. We think that would be a 
very good thing. We have tried to encourage that with all the 
parties.
    Mr. Tierney. And I hope, which hasn't been done yet, 
encouraging the Election Commission to have those parties at 
the table and be able to work off of any complaints or 
suggestions that they have.
    Mr. Boucher. Absolutely.
    Mr. Tierney. Which is not happening, either.
    Mr. Boucher. That is one of the first things I said in my 
first meeting with the Election Commissioner last year.
    Mr. Tierney. Now, in your written testimony you said, 
``President Musharraf reiterated his resolve to stop 
Talibanization of the frontier areas.'' And you said, ``The 
government of Pakistan has developed a comprehensive strategy 
to combat terrorist extremists by integrating these ungoverned 
spaces into the mainstream of Pakistan's economy and 
government.''
    I have to tell you that, you know, after having been there 
and witnesses here in other hearings, what went on in the 
Waziristan agreement clearly looks to be failed policy. Have 
you had that conversation with President Musharraf? Does he 
recognize and acknowledge that has been an extremely failed 
policy? And reiterated again just yesterday by our own 
individuals testifying in front of another committee telling us 
that there are worse conditions there than before the 
agreements, that not enough is being done.
    Mr. Boucher. I think we all recognize that the agreement in 
North Waziristan hasn't worked. The basic framework, because 
the government doesn't have direct control, they thought they 
could go and sign an agreement with the tribal leaders that was 
based on three key premises: one is no foreigners, no foreign 
militancy; two is no cross-border activity; and three is no 
infiltration into settled areas.
    That was a premise of the agreement that was signed in 
September. By November we and others realized it wasn't 
working. In fact, lifting the check points had led to probably 
more freedom of movement and something of an influx of Al Qaeda 
people into that area that was of serious concern to us.
    President Musharraf recognizes that, as well, and has said 
so in public, as well as in meetings.
    So what they have done since then is to try to call the 
tribes to account to make it work, and that was part of what 
they did in December and January before they moved against the 
Taliban and the Uzbeks in the area, and as part of what he has 
done again in his recent statements, and General Orakzai's 
recent statements to the tribes, that they need to expel all of 
the foreigners, including the Al Qaeda Arabs.
    Mr. Tierney. Thank you. My time is up and I am going to 
pass on to Mr. Shays.
    I just want to say in the contest between the Uzbeks, we 
were there pretty much when that was happening, and we had some 
fairly good accounts from a number of different sources. There 
was more like one Taliban group fighting another Taliban group, 
and the government finally decided to weigh in. I would like to 
explore that a little bit more with you later on.
    Mr. Shays.
    Mr. Shays. Thank you. If you would just go to Mr. Duncan, I 
might take some of his time.
    Mr. Tierney. Certainly.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman, for calling 
this important hearing, and thank you Mr. Shays for coming to 
me first.
    Mr. Secretary, like I am sure most Members, I have read a 
few thousand pages of articles, reports, news stories, excerpts 
from books about Iraq over the last 5 years. I have read far 
less about--and I have been to Iraq once, not like Mr. Shays, 
who has been there I think 15 or 16 times, but I have never 
been to Pakistan or Afghanistan and I know far less. I have 
come mainly to learn here today.
    I know most of your testimony so far has been about 
Pakistan. The hearing is entitled, ``Pakistan at the 
Crossroads; Afghanistan in the Balance.'' I am wondering can 
you tell us what is the total U.S. presence in Pakistan and 
Afghanistan at this time, counting civilian government 
personnel, military personnel, and U.S. Government contractors? 
Do you have any rough guess?
    Mr. Boucher. I think somewhere in a briefing book I have 
some exact numbers, but in Afghanistan the United States----
    Mr. Duncan. I am asking about both countries.
    Mr. Boucher. Yes.
    Mr. Duncan. Pakistan and Afghanistan.
    Mr. Boucher. So let me do it piece by piece, and then----
    Mr. Duncan. Sure. Go ahead.
    Mr. Boucher. And then we can try to add them up.
    The U.S. forces in Afghanistan are now about 26,000. There 
are about 46,000 United States and NATO forces together. And, 
in fact, we not only have more NATO troops in Afghanistan than 
we did a couple of years ago, but we have more U.S. troops even 
than when NATO started to deploy, so some of the feeling over 
the last couple of years, maybe the United States was leaving 
and NATO was coming in, is just wrong. We have had an expansion 
of our forces and expansion of their area of operations, which 
has been very important.
    I would have to get an exact number on the number of 
civilians that we have. We have, you know, several hundred at 
our embassy. We have people out in the PRTs. I think a couple 
dozen of the provincial reconstruction teams have Americans in 
them, including American staff. I can get you the exact numbers 
on that.
    In Pakistan we have about I think 350 regular personnel 
assigned to our embassy and associated with our embassy. As I 
said, we have consulates in Mahor, Karachi, Peshawar. We have 
drug enforcement personnel and some others down in Quetta at 
the air wing down there. Some of those are contractors. And 
then at any given moment we have several hundred temporary duty 
people in Pakistan. So you probably have at any moment maybe 
600 to 700 U.S. officials working in Pakistan, but, again, I 
would have to get you more exact numbers.
    Mr. Duncan. Well, I would appreciate it if you would submit 
that information.
    A similar and related question, you have mentioned that we 
have promised $150 million over the next 5 years, for a total 
of $750 million for economic development in the tribal areas. 
We are spending $100 million a year on education. You mentioned 
$20 million at another time. We have been given several 
articles. One article mentions that Vice President Cheney 
apparently expressed some concern that this Congress might cut 
military aid that we are giving to the Pakistani military.
    Can you tell me how much military aid we are giving? And 
what I am wondering about, do you have any idea about how much 
we are spending on a yearly basis on everything put together--
contractors, military, civilian--how much we are spending in 
Pakistan on a yearly basis total?
    Mr. Boucher. We spend----
    Mr. Duncan. Aid direct and indirect.
    Mr. Boucher. Yes. We spent $738 million this year on 
assistance programs; $300 million of that goes to military 
assistance. The rest is economic assistance, including things 
like education, economic reform, some health programs, 
earthquake relief and reconstruction programs, you know, bit of 
emergency relief money we found after the cyclones hit Pakistan 
recently. So that is 738, the bulk of which, 60 percent of 
which is economic.
    There is an addition. It is not assistance, it is 
reimbursements. We reimburse the Pakistani military through 
Coalition support funds for their costs in supporting the war 
on terror and stationing troops and moving them around and 
gasoline and bullets and training and other costs that they 
incur as part of the war on terror, and so that is in 
additional amounts that the Pentagon would have to get you, but 
that comes to probably in the range of $100 million a month. It 
is a lot of money. But they have 85,000 troops stationed at the 
border areas and we pay for that support. But that is 
reimbursements.
    Mr. Duncan. So we are paying all their troops for their 
work?
    Mr. Boucher. I don't know if it comes to the whole amount 
of their expenses, but we support their expenses, yes.
    Mr. Duncan. Is there any other country in the world that is 
coming anywhere close to doing what we are doing in Pakistan 
and Afghanistan?
    Mr. Boucher. No. Other countries are more and more 
involved. The British have stepped up their aid program. The 
European Union has just come forward with some money, but in a 
smaller range than ours.
    Mr. Duncan. We have been given a lot of articles from 
various publications. One article is entitled: Pakistan's Shaky 
Dictatorship. Do you think that most people in Pakistan regard 
us as a neutral power broker or peacemaker, or do you think 
that to most of them or many of them see us as propping up a 
shaky or corrupt dictatorship?
    Mr. Boucher. I think most people see us as supporting a 
moderate, modernizing force in society, which includes 
President Musharraf, it includes some of the political parties 
who push in that direction, and it certainly includes all the 
people who look for a free and fair election and a free press, 
growth of civil society--all of those things that we have been 
helping with and working with over the years.
    I do think that the majority in Pakistan is headed in a 
moderate and modern direction. They want the education. They 
want the free election. They want the open press.
    You know, they have gone from one TV station 8 years ago to 
42 or 44 now, so a lot of changes, positive changes in the 
economy and the society in Pakistan. I think most people want 
that to continue, and most people do associate us with those 
things that have happened and with the idea that progress needs 
to be continued.
    Mr. Duncan. One last question. The State Department's polls 
over the last few years, except in the Kurdish areas in Iraq, 
have shown that two-thirds or three-fourths of the Iraqi people 
want us to leave or not occupy the country. I am wondering has 
the State Department taken polls in Pakistan or Afghanistan? 
And what percentage of the people would you estimate in those 
two countries see us or look at us in a favorable light? What 
would the polls show on that?
    Mr. Boucher. I can't recall anything specific about 
Pakistan polling that I have seen. In Afghanistan I have seen 
polls that indicate that President Karzai continues to have 
very strong support in the 60 or 70 percent range, that people 
do support the government. They turned out to vote for it. They 
voted for a president and parliament and they liked that. So 
there is still very strong popular support there and support 
for the U.S. presence.
    Naturally they have concerns. They have concerns about some 
of the operations and civilian casualties that have been 
associated with those. They have concerns the government is not 
delivering what they expect from government. And I think it is, 
you know, incumbent on all of us not just to take for granted 
what it may say in the polls, but look in the areas where we 
can do better, and that is something we do try to do.
    Mr. Duncan. Of course, I know they certainly want our 
money.
    I yield back my time to Mr. Shays.
    Mr. Shays. If I could take your last 30 seconds, Mr. 
Boucher, I am going to go speak on the House floor on the rule 
on Iraq.
    Mr. Boucher. Certainly, sir.
    Mr. Shays. I will be back. I think this is an 
extraordinarily important hearing, and I compliment my 
colleagues for participating and thank them all for being here.
    I will be back.
    Mr. Tierney. Thank you.
    Mr. Cooper, recognized for 10 minutes.
    Mr. Cooper. Thank you, Mr. Chairman. I, too, want to thank 
you for this timely and topical hearing.
    Our witness, Ambassador Boucher, is a diplomat, and he has 
done an excellent job of putting a positive spin on U.S.-
Pakistani relationship. I worry, though, that the average 
American who occasionally reads the international section of 
the newspaper looks and sees a country they don't know much 
about that is on the other side of the world. They may have 
seen the Angelina Jolie movie, A Mighty Heart, but that might 
be the limit of their knowledge of Pakistan. But if they read 
the newspaper articles they see that they are probably 
harboring Osama bin Laden, who, according to our U.S. military, 
is still rated as about our No. 1 enemy in the world. They are 
probably harboring Mullah Amar, the Taliban. We know they are 
harboring A.Q. Khan, the world's leading nuclear proliferator.
    I ask myself: is there anything else they could do to 
harbor an international bad guy? And yet they are still listed 
as a strong ally of our country and we are still, as my 
colleague from Tennessee pointed out, giving them extraordinary 
amounts of aid, both military, domestic? And here you are, a 
perfectly nice, calm diplomat, talking about polling elections 
in Pakistan when also in your testimony you admit much of the 
country is ungoverned space, tribal areas the government 
doesn't even pretend to claim, and yet we are holding 
elections? The chairman just pointed out that, what, 12 million 
of the names on the rolls are duplicates or faulty?
    I know you have to work with what you have, but there seems 
to be a disconnect here. How can you solve this problem of 
cognitive dissonance?
    Mr. Boucher. Well, I mean, I solve it personally by reading 
all the newspapers and not just a couple, because in the end 
Mullah Amar is somewhere in that border region. If you have 
ever flown over it, you have seen, you know, vast deserts, a 
sort of hole-in-the-wall canyon where the people can hide out. 
You have seen enormous mountains where people can hide out. You 
have seen parts of the country, not large parts of the country, 
parts of the country where the government doesn't hold sway.
    Mullah Amar is probably out there somewhere. Bin Laden is 
probably out there somewhere. But we are capturing the bad 
guys, if you read, have been reading the papers about Pakistan 
for years, you may remember that Ramsey Usef and Kalal Sheik 
Mohammed were picked up there, that they have consistently 
picked up Al Qaeda people, that they have lost people doing 
that. You may have seen that Mulla Obadullah was picked up in 
Pakistan, and Muladu Dulalang, a top leader of the Taliban from 
Quetta, was killed in Afghanistan, in part with the help 
Pakistanis provided us.
    You may have seen press reports last week that indicated 
they picked up several more top Taliban people associated with 
Mullah Omar.
    This is a constant effort. It is a constant effort. There 
is good stuff going on and there is bad stuff going on. There 
is a lot of turmoil. There is breathtaking complexity, and it 
is sometimes hard to sort out.
    Mr. Cooper. I am still trying to decide whether you are 
being moderate and fair or whether you are just making excuses.
    Mr. Boucher. I am trying to look at the whole picture.
    Mr. Cooper. If they are able to harbor three of the world's 
international outlaws, how many more can they harbor and the 
State Department would still approve of their behavior? Is this 
an open invitation, a Motel 6 for terrorists in Pakistan?
    Mr. Boucher. I don't think----
    Mr. Cooper. That they can come and it is always OK and we 
are doing the best we can?
    Mr. Boucher. No. You know, a few days after September 11th 
this administration put very blunt choices in front of the 
Pakistanis and said, Are you going to fight these guys or not? 
They said, Yes, we are going to fight those guys. And they have 
done that, and they have done that for 5 years now. They 
haven't gotten everybody, frankly nor have we gotten everybody 
on the Afghan side. So we are always working together, always 
talking to them. What's next? What do we need to do? Where can 
we go? How do we cooperate across the border?
    That is a constant effort. That is what Vice President 
Cheney has been out there doing this year, Secretary Gates, 
Deputy Secretary Negroponte.
    Mr. Cooper. Let me ask a different question. Are you 
confident that the State Department is even kept in the loop of 
what America is really doing in Pakistan?
    Mr. Boucher. Yes.
    Mr. Cooper. I know this is an open hearing, so we can't 
talk about current events, but let's talk about some history. 
The book, Charlie Wilson's War, a movie is coming out on that, 
and then maybe Americans will tune in to what happened. Were 
you aware at the time that Congressman Charlie Wilson from 
Texas was funnelling billions of dollars in aid to the Mujah 
Hadin?
    Mr. Boucher. I wasn't working in this area at the time, so 
no, I probably wasn't.
    Mr. Cooper. Were you aware that----
    Mr. Boucher. I read a lot of accounts of it and I look 
forward to seeing the movie.
    Mr. Cooper. Congressman Charlie Wilson was apparently made 
a general in the Pakistani army----
    Mr. Boucher. I have heard things like that, yes.
    Mr. Cooper [continuing]. Due to his money shipments to 
Pakistan?
    Mr. Boucher. Yes.
    Mr. Cooper. A Texas Congressman was made a general in the 
Pakistani army, given a uniform, and the only condition, 
according to the book, is that he was asked not to wear the 
uniform while he was in Pakistan. But apparently in any other 
country on earth he could parade around in a Pakistani 
general's uniform. Was the State Department aware of that?
    Mr. Boucher. I don't know if we were aware at the time, 
sir. I just don't know. If you read Ghost Wars, that kind of 
stuff is talked about there. I am not sure if that particular 
incident is in the book. I know it is in other books. But a lot 
of that stuff has come out. I mean, let's remember, you know, 
we were all together from 1979 to 1989 fighting the soviets in 
Afghanistan, whether Mujah Hadin or the Pakistanis or the ISI 
or the Saudis. A lot of what we are dealing with now came out 
of that period. The question is not what did we all do back 
then; the question is what are we doing now.
    Mr. Cooper. Well, let's talk about what are we doing now. I 
haven't heard much from Karen Hughes lately. Is she still the 
America's public face to the Islamic world?
    Mr. Boucher. Well, she is organizing America's public face 
to the Islamic world. But yes, I talked to her just this 
morning about Pakistan.
    Mr. Cooper. Are we producing results? Is American approval 
going up in the Muslim world?
    Mr. Boucher. It is a hard question to answer, sir. In some 
places we do have very strong approval; in others we have very 
dismal approvals.
    Mr. Cooper. Can you remind me of some places in the Muslim 
world where we have strong approval other than among the Kurds?
    Mr. Boucher. Well, that isn't the Muslim world, but 
Afghanistan I think, you know, people are still very supportive 
of the U.S. effort there. As I said, I haven't really seen 
polls in Pakistan, but I think a lot of people understand what 
we are doing and they are supportive of what we are doing 
there.
    Mr. Cooper. You haven't seen polls in Pakistan, and this is 
your account?
    Mr. Boucher. I am afraid it is not one of the things I look 
at on a regular basis. Maybe I should, but I have not tried to 
track things through polls. I have tried to keep in touch with 
a lot of people throughout society and try to understand their 
opinions.
    Mr. Cooper. Can you remind me how many predecessors there 
were to Karen Hughes? Wasn't there a Charlotte Beers? Weren't 
there several folks who----
    Mr. Boucher. A number of people have had the job.
    Mr. Cooper. Can you recall how many in the last 6 years?
    Mr. Boucher. I was acting at one point, so I don't know if 
you count that. There was Charlotte. There was Margaret 
Detwiler. I hate to do this, because I am probably leaving 
somebody out.
    Mr. Cooper. That is four right there: Charlotte, you, 
Margaret, Karen.
    Mr. Boucher. I was more nominal than effective, but anyway, 
yes.
    Mr. Cooper. That is an interesting self-appraisal. What can 
America be doing to be more successful in this region?
    Mr. Boucher. Sir, as you know, and I know why you are 
asking these questions, because I did spend a long time as 
spokesman for the State Department. I tried to grapple with 
these questions over the course of my career many times.
    Frankly, I start with the premise that good policymakes 
good press. You have to do good things. You have to help people 
get safety and justice and economic opportunity and education 
for their kids, and the more of that you do, the more in the 
long run people will appreciate you.
    You have places like India where we have enormously 
positive approval ratings. I think it is largely because we 
offer educational and economic opportunity to people and their 
children.
    So that is the premise that I start with, and that is where 
my focus is now.
    Mr. Cooper. It sounds like your theory is that American 
foreign aid makes us popular. The taxpayer has limited 
patience.
    Mr. Boucher. I understand that, but I think also the 
taxpayer has a very strong interest in seeing these parts of 
the world stabilized, in taking away the ungoverned spaces and 
letting government gain control there, and in helping people 
whose frustrations lead them to horrible acts of violence.
    Mr. Cooper. But the American taxpayer I think also wants 
results, and to see three of the world's most wanted 
international outlaws--we are still not even allowed to 
interview A.Q. Khan, right?
    Mr. Boucher. He is under house arrest and----
    Mr. Cooper. We are not allowed to----
    Mr. Boucher. No, we don't have direct access, but we have 
gotten good cooperation on that. And, frankly, he is out of 
business. The network has been destroyed.
    Mr. Cooper. But we don't know how many nations he sold the 
technology to?
    Mr. Boucher. I think we have had good cooperation and they 
provided a lot of information to the International Atomic 
Energy Agency.
    Mr. Cooper. I see that my time has expired. Thank you, Mr. 
Chairman.
    Mr. Boucher. Thank you.
    Mr. Tierney. Thank you very much.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I appreciate your 
holding this very important hearing and very timely hearing.
    Mr. Secretary, I don't want to be too repetitive and 
apologize for missing some of the early questions, coming in 
late. In looking back to the events of September 11, 2001, and 
President Bush's address to the Nation on September 20th from 
the House of Representatives, he spoke about the importance of 
countries making a choice. They are either on the side of good 
against Al Qaeda and the terrorist efforts or on the side of 
evil and siding with them, but they need to make a choice. And 
President Musharraf on behalf of his nation made a choice and 
said, We will no longer stand with the Taliban and recognize 
them, and we will now stand with the United States and other 
nations around the world against Taliban, Al Qaeda, and their 
efforts in having attacked us and seeking to do harm to others, 
as well.
    In him making that choice, that certainly was an important 
one for his country and for us in having their assistance.
    Given the current environment in the Federal overseeing 
tribal areas of western Pakistan, is the choice he made in the 
days after September 11th still valid in how it is impacting 
our national security, given the sanctuary that we now see 
occurring in western Pakistan?
    Mr. Boucher. I think the choice is still there, the 
commitment is still there, the intention is still there. Is it 
fully effective? No, not yet. We work with him, we follow this 
closely. We follow the intelligence closely. They have been 
able to get at a lot of the top Al Qaeda figures who have been 
in and out in Pakistan over the years. They have had, as I 
said, some success in the tribal areas with Taliban leaders. 
They have had some success in the tribal areas against a few of 
the training camps and madrassas. But, unfortunately, these 
areas has been infested with extremists of all kinds, and they 
have gotten some of them but certainly not all.
    Mr. Platts. It is my understanding from the recent threat 
assessment that has been done regarding Pakistan that Al 
Qaeda's efforts in Pakistan to kind of re-energize itself were 
not successful until recently and following the December 2006, 
agreement between President Musharraf and the tribal leaders 
that he would remove his military presence from those areas and 
rely on the tribal leaders and their colleagues to self-govern, 
to self-patrol, I guess, that region, and not allow it to 
become a safe haven.
    Given that apparently is not working, what indications, if 
any, do we have from President Musharraf that he is going to 
take a different approach in that region? And if there is no 
different approach being discussed, is it something that we 
need to then look at how to take action to ensure the security 
of our Nation because of his not maybe lack of commitment or 
interest in doing so, but inability to do so?
    Mr. Boucher. I think it was mis-reported in the paper. The 
agreement was actually last September, and by about December 
2006 they had realized--we had realized that the agreement 
wasn't working. The tribes were not effectively dealing with 
the foreigners and the Taliban that were in their midst. And so 
what we have seen over the early part of this year was an 
effort on the part of the tribes, supported by the government, 
to expel some of the Taliban, and with Pakistani help we were 
able to get some of the very top leaders of the Taliban who had 
operated out of Pakistan and to expel the Uzbeks, Chechins, and 
hundreds of others who have been in those areas.
    President Musharraf made a speech about 2 weeks ago up in 
Peshawar to the tribes saying we have to get all of the foreign 
militaries, the Al Qaeda and the Arabs, as well, and we have to 
stop the Taliban, sort of what you want to call the Pakistani 
Taliban, the ones who are not only supporting the Taliban in 
cross border but also trying to infect the settled areas of 
Pakistan. So that seems to be the direction that he is headed 
now, and we keep in close touch with him about that.
    Mr. Platts. Is his actions regarding the Red Mosque in just 
the past days a positive indication of him being more 
aggressive in going after the extremists in this country?
    Mr. Boucher. I think it is a very positive indication that 
he is serious about dealing with the problem of extremism. I 
think he has popular support in trying to do that.
    Mr. Platts. My hope is that the actions he has taken with 
the Red Mosque and your statements of renewed efforts of 
working with the tribal leaders resulting in efforts to capture 
key terrorist leaders is going to fulfill itself in a greater 
sense in the weeks and months ahead.
    I know when Congressman Steve Lynch led our delegation to 
Afghanistan in April, one of our visits was down to one of our 
forward outposts on the Pakistan-Afghanistan border, and 
clearly in the briefings we received the threat coming in from 
Pakistan is a daily constant threat, and it seems a little 
illogical, I guess, to me that if we know where the enemy is 
and we have an ally that is, you know, the host country of that 
enemy, and they are not able to address the daily threat, that 
arbitrary border should not prevent our military from doing 
what it needs to do to not just protect themselves and go after 
the source of the daily attacks, but in the broader picture 
better secure our Nation's safety and citizens' safety.
    If President Musharraf is going to follow through, 
obviously it is appropriate that we work with him; but if not, 
I think we need to rethink how we are dealing with that tribal 
area for the safety of our soldiers there and their courageous 
work in Afghanistan, and then ultimately our safety here.
    I want to ask one other area, and that deals with, given 
reports of Taliban and Al Qaeda kind of re-emerging and 
strengthening in the western region of Pakistan, my 
understanding is that Britain, Denmark, Germany, a number of 
countries have a pretty free flow of their citizens between 
their countries and Pakistan. Those countries are also part of 
our visa waiver program. Is there a renewed look on how we are 
operating our visa waiver program with those countries, given 
their interactions with Pakistan?
    Mr. Boucher. Sir, I think it is something that the 
appropriate people do look closely at, but I haven't been 
involved in those discussions, so I can't give you any more 
detail.
    Mr. Platts. It is something that if, on behalf of the 
Department, you could followup with the committee--Mr. 
Chairman, if that would be OK to make the request on behalf of 
the committee to have the Secretary followup with us on that 
issue?
    Mr. Tierney. Ambassador, is that something you are able to 
do?
    Mr. Boucher. I would be glad to.
    Mr. Tierney. Thank you.
    Mr. Platts. In conclusion, Mr. Secretary, I want to thank 
you for your efforts and don't want by my questions to imply 
that I don't appreciate your service to your country and your 
colleagues at the Department here State-side and in some very 
dangerous parts of the world in working on behalf of their 
fellow citizens. We certainly appreciate your patriotic and 
dedicated service, sir.
    Mr. Boucher. Thank you, sir.
    Mr. Platts. Yes.
    Thank you, Mr. Chairman.
    Mr. Tierney. The gentleman yields back.
    Mr. Higgins, you are recognized for 10 minutes.
    Mr. Higgins. Thank you very much, Mr. Chairman. I just have 
a couple of brief questions, really.
    I am just trying to get my arms around this situation. What 
always amazes me about, you know, the Middle East is its 
relative youth, including Pakistan. I think the real fight 
against terrorism is a fight for the imagination of the youth 
of the Middle East, including areas like Pakistan, relative to 
giving them a better sense of what their future--not what they 
know it to be, but what it can be, dealing with the potential.
    Is it safe to say that the basis for fundamental terrorism, 
Al Qaeda and Taliban, is located along the Afghanistan-Pakistan 
border?
    Mr. Boucher. I think the answer is yes. I am sure others 
would be more precise on the wording, but there is considerable 
activity of the Taliban in those border areas of Pakistan. 
There is considerable Al Qaeda presence, including training, 
some of the command and control. But, as I said, I think they 
are under pressure. It is not the only place that they operate. 
Certainly Al Qaeda people have been picked up in Karachi and 
other parts of Pakistan. And it is not just in tribal areas, 
but it does cut down to Quetta, and the Baluchistan border area 
has been a center of activity, as well.
    Mr. Higgins. Let me put it a different way. The Al Qaeda 
base that has emerged in Iraq, the origin of that, is it safe 
to conclude, is Pakistan, Afghanistan?
    Mr. Boucher. I don't think that would be precisely 
accurate. I think you would have to ask the intelligence folks 
to do that in more detail.
    Mr. Higgins. Where would be the origin of that Al Qaeda 
presence in Iraq then?
    Mr. Boucher. I think they have come from a lot of places 
and gathered there, and to some extent the base comes from 
there. They do have some ties with Al Qaeda in other places, 
including Al Qaeda who are in Pakistan, and there is a 
significant presence still there.
    Mr. Higgins. Does the United States' continued support for 
Musharraf hurt us in the eyes of the 165 million people that 
live in Pakistan? I mean, he is a military dictator. He is 
increasingly becoming more unpopular.
    Mr. Boucher. I think people understand that we have a lot 
of interest in Pakistan. We have interest in fighting the war 
on terror, keeping our country safe and their country safe. We 
have interest in building the economy, in building the 
education system. We have interest in elections and seeing a 
free and fair election. We work with President Musharraf and 
his government on all those things. He is a military ruler, and 
that is the government that is there.
    But we also have very close ties with all the people in the 
political parties. I think people, by and large, understand 
that our goal is a strategic one and a broader one, and I know 
people often say, well, the United States supports Musharraf. 
Well, yes, we do support Musharraf, but that is part of our 
overall support for Pakistan in the course that Pakistan has 
set upon.
    Mr. Higgins. A final thought on this. The pronouncements of 
this administration relative to essentially what amounts to a 
zero tolerance policy concerning those who harbor terrorism, 
there seems to be a fundamental disconnect here that all the 
intelligence, including especially the most recent 
intelligence, conclude that a big problem for us, a big problem 
for the free world, is what is going on in these training 
camps.
    Pakistan, despite Musharraf's tough talk, seems to be 
facilitating not only the growth but the strength of what 
threatens the United States primarily, and I think the free 
world generally.
    How does the administration reconcile this? I mean, I know 
that there is a duplicitous nature in terms of foreign policy, 
particularly in the Middle East, but it seems to me that 
Pakistan has made some early commitments to the United States 
relative to our fight against terrorism, and yet concurrently 
seems to be, or if it is not intentional, very ineffective in 
suppressing the growth and the strength of the Taliban and Al 
Qaeda.
    Mr. Boucher. I think, sir, we look at what they are trying 
to do and we look at how we can help them doing it more 
effectively. We look at the fact that they have picked up 
hundreds, hundreds of Al Qaeda over the last few years.
    Mr. Higgins. Yes.
    Mr. Boucher. We look at the fact that they have helped us 
capture or kill 3 out of the top 10 Taliban commanders in the 
last 6 months. We look at the fact that they just the other 
day, according to press reports, have picked up several more 
top Taliban commanders. We look at the fact that they have 
helped the tribes expel the Uzbeks, who were a source of great 
trouble, training, and fighters have been in that area. We look 
at the fact that they have attacked Madrassas. They have 
attacked training camps where these foreign fighters are being 
trained. There has been a lot of activity up in that area.
    Mr. Higgins. Yes, but you know----
    Mr. Boucher. But there is a lot to do.
    Mr. Higgins. The former Secretary of Defense, I always 
remember, had said that the measure of success in the war on 
terrorism is--and this was several years ago--are we capturing, 
are we detaining, are we stopping more terrorist activity every 
day than is being created. I think this most recent 
intelligence report is a repudiation of the effect of the 
strategies advanced by this administration, because there is 
one thing that sticks out in all of this, and that is that, 
again, intelligence reports are concluding that Al Qaeda, the 
Taliban, are at pre-9/11 strength levels, and to me it all adds 
up to the same conclusion, and that is that our fight has been 
highly ineffective. The pronouncements of the Secretary of 
Homeland Security this week about, you know, the heightened 
threat, you know, obviously I would disagree with any 
conclusion that we have been effective in our efforts to 
undermine the strength and growth of the terrorist threat.
    Mr. Boucher. I haven't seen the report that the newspapers 
all seem to be talking about right now, so I can't give you the 
full intelligence assessment. My own view is that this is a 
difficult and long process. The chief threat to all of us has 
been ungoverned spaces. That is what Afghanistan was with the 
Taliban and Al Qaeda operating from there, place where no 
reasonable government had sway. And that is how we were 
attacked on 9/11.
    And our job, whether it is militarily or diplomatically, is 
to get government cooperation, government control of the 
ungoverned spaces in the world. We have done that militarily in 
Iraq and Afghanistan, are doing that still militarily in Iraq 
and Afghanistan, also done it diplomatically with our work 
with, you know, Yemen and Sudan and Libya and a whole bunch of 
other places. But it is a constant and long-term effort. The 
government of Pakistan has never had full control over all its 
territory, and it is trying to extend its control. The 
government of Afghanistan is trying to extend its control, and 
we are a major part of that. But until we can help those 
governments provide good governance and the benefits of good 
governance, as well as the control of good governance to all 
its territory, there is still going to be a threat against us, 
and that is what we have to work very hard to get rid of.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Tierney. The gentleman yields back.
    Mr. Burton, you are recognized for 10 minutes.
    Mr. Burton. Thank you very much, Mr. Chairman. I think this 
is a very timely hearing.
    I listened to my colleagues. Some of them are evidently 
very critical of what the administration is doing. I hope that 
they are aware that George Washington was criticized the same 
way and they wanted to remove him from leadership during the 
Revolutionary War. He was also criticized when the J Treaty was 
signed. Abraham Lincoln was going to be defeated without any 
question by McClellan because the war wasn't going well until 
Sherman took Atlanta. So in every war, I think almost without 
exception, there have been people who have been very critical 
of incumbent Presidents when things weren't going well, and I 
think this is no exception because things haven't been going 
well.
    I would like to say to my colleagues that Senator 
Lieberman, who is a Centrist Democrat, has been over to Iraq a 
number of times, as many of us have, and he has said very 
clearly that in Iraq, if we don't deal with the training camps 
in Iran, that we are going to see a continual problem over 
there, and that if we pull out of Iraq with all this going on, 
that there would be a vacuum created which would be filled by 
the radicals, and it will become a training ground not just in 
Iran but throughout Iraq for additional terrorism throughout 
the world.
    Now, regarding Pakistan, I would like to ask Secretary 
Boucher what would happen if we didn't have an ally like 
President Musharraf over there, in your opinion?
    Mr. Boucher. I think if Pakistan was not fighting 
terrorism, there would be no way we could succeed in 
Afghanistan or in terms of the security of our homeland.
    Mr. Burton. Well, Musharraf is a major part of our fight to 
stop the Taliban and terrorist training camps over there, is he 
not?
    Mr. Boucher. Absolutely, and he has been a good partner in 
doing that.
    Mr. Burton. And there have been a number of Taliban 
leaders, as you said, that have been captured, killed, and just 
recently they were captured?
    Mr. Boucher. Over the months and in recent weeks.
    Mr. Burton. And President Musharraf, because of this, in 
large part, has had a number of assassination attempts on him, 
has ne not?
    Mr. Boucher. And some of the militants in the mosque--you 
saw Al Zawah just yesterday was threatening Musharraf because 
he is fighting against extremists.
    Mr. Burton. Let me also ask you about Mr. Khan. This may be 
classified, and we will have to get it some other way. Has he 
been questioned by any of our intelligence people? And do we 
have any intelligence information on what technology and other 
nuclear information he may have given to Iran or other 
countries like Libya?
    Mr. Boucher. I think we have said in public that we have 
not had direct access to Mr. Khan, but we have had good 
cooperation from Pakistani authorities. We have had a good flow 
of information to the international community, us, other 
countries, International Atomic Energy Agency, and that we are 
confident that, based on that information, we have been able to 
put the network out of business.
    Mr. Burton. I really appreciate you stressing that there is 
so much wild or vacant land there in the mountainous region 
that it is very difficult to take care of all the areas and get 
this thing completely solved in one fell swoop, and the same 
thing is true in Afghanistan with the Taliban, so I appreciate 
very much your pointing that out, and also that you pointed 
out, as I said before, that he has been very cooperative and 
they have captured a number of the terrorists and the training 
camps and the leaders over there.
    So I appreciate your being here today.
    I would just like to say to my colleagues that there is no 
perfection in war. In every single war that I have read about--
and I have been around quite a while--in every single war there 
has been tremendous disenchantment when things weren't going 
well. This is no exception.
    In World War II--and I have talked about this before--
because everybody was worried about appeasing Hitler and 
Mussolini and Tojo and all the others over there, we ended up 
seeing 62 million people die and about half a million American 
troops.
    This is a very insidious war that we are fighting right 
now. Iran is trying to develop a nuclear capability. On my Web 
site a number of times it showed a mockup of a briefcase 
nuclear weapon that weighs about 40 pounds that, if it were 
placed within three blocks of here, would kill every one of us. 
It would destroy eight square blocks and the radioactive 
fallout would probably kill another 50,000 to 100,000 people.
    So, you know, this is a very difficult time, and I think 
Senator Lieberman hits the nail on the head. He sees what is 
going to happen. If we start pulling in our horns and not 
supporting our allies, there will be a vacuum created, in my 
opinion, in Pakistan, in Iraq, and that is going to be filled 
by the radicals, and they will not be in any way convinced that 
they should stop their wild movement toward nuclear 
development, and it will imperil not just the Middle East, but 
the United States, as well.
    So I think we should not be myopic. I think we should look 
at the big picture and realize, as Winston Churchill did in 
World War II, that they had to prepare for and deal with people 
like Hitler, and we have to deal with people like the president 
of Iran and the leaders in the Taliban and those tribal leaders 
over there. Otherwise, we are going to have a big problem down 
the road.
    I appreciate very much, again, your being here, and I 
appreciate your forthrightness. I hope you will come back with 
further reports in the future.
    Mr. Boucher. Thank you, sir.
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Tierney. The gentleman yields back.
    Mr. Lynch, you are recognized for 10 minutes.
    Mr. Lynch. I thank you, Mr. Chairman. I want to thank the 
ranking member, as well. I think it is great that you are 
having this hearing, and I appreciate all of the attention that 
you have given to this issue, and I want to thank the Secretary 
for coming before the committee and helping us with our work.
    First of all, I just want to say I concede the complexity 
of the task here. I admit, having spent a little time down on 
the Pakistan-Afghanistan border with Mr. Platt and also the 
chairman and others who have gone down there, as well, it is a 
very complex situation. President Musharraf has a difficult 
balancing act between the Islamic radicals within his own 
country. However, I must admit I must say that I think your 
assessment of him, even though he may be the irreplaceable man 
at this point, I still think that your assessment of his 
performance objectively is a bit rosier than I would, you know, 
measure from my own judgment of him.
    I just want to say that, having been on the border there, 
he actually has a policy in place where I was with Colonel 
Sweitzer of the 82nd Airborne and the Fourth Combat Team down 
there in the Parrot's Beak area just south of Torra Bora, where 
he has some folks where the Taliban are coming across the 
border on a regular basis, and because of Musharraf we have a 
no-fire border on our troops. We can't fire into Pakistan in 
pursuit of Taliban and other forces coming out of that tribal 
area.
    I know terrorists are coming from all over into 
Afghanistan, but that area over there, bin Laden has a 
longstanding history in that area, even when they were fighting 
the Soviets and war on Afghanistan. He has a long history in 
that area. He has had a longstanding friendship with Hakani and 
some others who operate in that border area, and that is a 
definite and central source of insurgency, Taliban, Al Qaeda, 
and others into Afghanistan. It is demanding great resources, 
not only of ourselves but the Afghani government, as well.
    I also want to point out that the somewhat offhand comments 
that the Pakistanis don't have a lot of influence in those 
tribal areas is a choice that they have made. It is a choice 
that they have made. They made an agreement to create a safe 
haven there for whoever can dominate that area, whether it be 
the Taliban or Al Qaeda or other governments. I know the Saudis 
for a very long time were pumping money into those Madrassas, 
and, you know, we have 50 percent of the kids in Pakistan don't 
go to school between the ages of 5 and 9. The fact that these 
Madrassas are allowed to operate and are being funded provides 
the only option for a lot of those kids and a lot of those 
families.
    You know, I noticed in our own budget we spend about $10 
billion a year in Pakistan. A little bit more than one-half of 
1 percent of that goes to USAID for helping with education. I 
really think if we are going to get to the root of this we 
can't provide it directly, because I don't think we have the 
credibility in Pakistan, especially in those tribal areas, but 
we have to have some type of honest broker in there to provide 
a good, solid public education to those kids; otherwise, they 
will be the terrorists of the future, and we have to figure out 
a way of stopping this cycle where the Madrassas are creating 
jihadists in that area. And if we don't get to that, everything 
else we do will be secondary.
    I would like to at some point hear your own opinions on 
what we can do about getting the shackles taken from our own 
troops in that tribal area to allow them to go after the 
Taliban and go after Al Qaeda and to provide a little bit more 
cooperation on that border area.
    This idea that our troops--and I spoke to them personally. 
They cannot fire over the border, even though they know that 
the Taliban and Al Qaeda and those jihadists are just over the 
border and they have been given a safe haven area to launch 
attacks into Afghanistan.
    You know, the great criticism of us after 9/11 was that we 
allowed training camps to operate in Afghanistan. We allowed 
the camps in Torra Bora. We allowed that to happen. We knew 
they were there and we didn't take action and 9/11 happened.
    Well, I have to admit there is a little parallel here. We 
are recognized as a safe haven here and Waziristan. We know 
they are operating. We have some surveillance there. But we are 
not taking direct and deliberate action.
    Again I go back to the complexity of this situation that 
Mr. Musharraf has. No doubt about it. But I think we can push 
him a little harder. We can demand that more positive and 
affirmative action be taken, you know, against the terrorists 
who are just growing their organization in that area. I just 
really believe that we are missing an opportunity here, and I 
would like to hear, you know, your own views about how we might 
reduce that threat in Waziristan and allow some of the 
moderate--and there is a lot of moderate influence in Pakistan. 
Allow some of that moderate influence to predominate and to 
shape the future of that country in a way differently than it 
is right now.
    Mr. Boucher. Thank you, sir. I don't disagree with very 
much of what you just said. I think we all have to be aware of 
the fact that the Taliban and Al Qaeda operate from these 
areas, operate in these areas. They are a threat to our troops 
in Afghanistan. They are a threat to the Nation of Afghanistan 
and what we are trying to achieve there. They are a threat to 
the Nation of Pakistan and to all of us, even in our homeland. 
And it is one of the critical threats that we have to deal with 
today. The question is how we are going to deal with it.
    In the end, what we are trying to do is to help the 
Pakistani government exert better control on its side of the 
border and the Afghan government exert better control on its 
side of the border. We do it in different ways. We operate more 
directly in Afghanistan because that is the relationship we 
have there and that is because the Afghan government is not 
fully capable yet. Pakistani government has the forces and has 
the intention, and I don't--I guess, you know, maybe the only 
difference between what some of you are saying and what I am 
saying is that we are all aware of the things that haven't been 
done and the problems that exist. I am also trying to put out 
some of the things that have been done and that have been 
achieved, because I think we have achieved a lot.
    If you look at what has happened to the Taliban in 
Afghanistan, for example, last year they set out to take towns 
and cities and territory, and they failed. This year they set 
out again to take towns and cities, particularly looking in 
Kandahar, and they failed. They talked about a spring offensive 
which never materialized, so now they talk about a summer 
offensive. And, indeed, they have been able to mount some 
actions, but more often than not all they have been able to do 
is blow up school children like they did just the other day in 
a particularly horrible attack where they killed 12 school 
kids.
    Taliban has not succeeded. It is a constant effort to get 
after them, to push them out of places in Afghanistan, but we 
have achieved a certain amount of success in the past year 
against the Taliban, and that has been both through our efforts 
and the Afghan government efforts, but also because of the 
pressure that has been brought on them from the Pakistani side.
    We need to continue our efforts and our allies' efforts and 
the Afghan efforts and the efforts on the Pakistani side to be 
completely effective.
    Mr. Lynch. Thank you. I want to thank you for your service 
to our country, as well.
    Mr. Boucher. Thank you, sir.
    Mr. Lynch. Thank you.
    Mr. Tierney. The gentleman yields back.
    Mr. Yarmuth, you are recognized for 10 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman. I also appreciate 
your being here and appreciate this hearing.
    One of the things that occurs to me as I have read through 
a lot of material and consumed much of the media in recent 
weeks is the question of expectations. It seems to me that 
Pakistan offers an example of that, and I am wondering whether 
we have expectations that are not realistic in the sense of 
looking at governments to do what we think needs to be done in 
combatting terrorism.
    The thought occurs to me, we talk about polling, we talk 
about elections, and yet terrorism is, by definition, anti-
democratic. If you have 99.9 percent of the people agreeing 
with a certain way of operating and you have 0.1 percent that 
is intent on undermining that, the democracy in a certain sense 
doesn't make any difference.
    So I would like you to comment on that, with particular 
respect to Pakistan, but also recognizing we had elections in 
Iraq and obviously we haven't--it is obvious to me, anyway, 
that has not particularly helped combat terrorism. So the 
entire sense of whether our expectations of governments in 
combatting terrorism, again in the context of Pakistan 
particularly, are misplaced.
    Mr. Boucher. I think it is a legitimate question. I think 
we need to understand the background of these situations 
without trying to make apologies for the way things are. The 
governing relationships in the tribal areas go back to British 
days. We read British books from 1903 about how they were 
trying to get a hold of the tribes of Waziristan. We see many 
of the same problems.
    The government of Pakistan, when it came to being 60 years 
ago, was unable or didn't change those arrangements. Those 
arrangements were carried down.
    And then you had the anti-Soviet period in the 1980's where 
we and the Saudis and others funnelled a lot of money into 
those areas and changed some of the relationships. The 
relationship was always the government dealt with the tribal 
leaders, the tribal leaders enforced order and discipline. But 
during the anti-Soviet period there were other people who rose 
up, the Mullahs and the Madrassas that were being heavily 
financed, the partners in the Mujah Hadin against the Soviets, 
a whole lot of other forces that came up in society.
    So even now the same arrangements exist where the 
government goes to the tribal leaders and the tribal leaders 
imposed order, but the tribal leaders are no longer the sole 
repositories of power, and so it has become even more complex 
up there, so you have to deal with that situation. You have to 
deal with it in some areas where the government can act 
directly, like around Quetta and Baluchistan, some areas where 
they have tried to work with the tribal areas and it hasn't 
worked, like in Waziristan.
    But overall you have to do everything you can to help them 
and expect them to exert government control, understanding that 
it is a difficult thing to do and that they are going to need 
different kinds of help.
    One of the things we have been trying to help with now is 
the Frontier Corps, the people recruited into an army for a 
local area from the area, people who know the area, because 
people from outside the areas, not just foreigners, you know, 
Americans or others, but people from other parts of Pakistan, 
you know, can go in there and get shot at, and that has 
happened many, many times to regular Pakistanis from other 
parts of the country. So we want to transform the Frontier 
Corps in a more effective force for stability and fighting 
force there.
    I was down on the border in Baluchistan last month with a 
colonel who has I think 160 kilometers to protect. He has 
border posts. He has some body armor for his troops, but he has 
to divvy it up to the places where it is really important. 
Other troops have to go without. And he has some night vision 
goggles for some places; other troops have to go without.
    So if we want them to be more effective in patrolling the 
area and controlling the border we have to be in there with 
them, and we are asking for money in our budgets, according to 
the 2008 budget, to support the transformation of the Frontier 
Corps to be a force that can exert better control in that area.
    Mr. Yarmuth. Let me ask a slightly different question. It 
seems to me that it is possible--and I don't want to sound like 
I am insinuating, but I am asking you if this is possible--that 
we might have a situation in which you talk about successes--
and yes there have been some, and some leaders have been 
captured and killed--that there is a calculation that I can, if 
I were Musharraf, I could bring in a couple of these token 
leaders in order to portray myself adequately as an effective 
fighter in order to generate continued support, while at the 
same time I can play both sides and allow some of these things 
to happen. Are you confident that is not happening in Pakistan, 
or is that a possibility?
    Mr. Boucher. I suppose theoretically it could be there, but 
I don't really see it happening. I see a difficult situation 
they have dealt with in different ways. We have seen sometimes 
signs every now and then that there is not a wholehearted 
effort at all levels and all institutions in Pakistan, and we 
have raised those when we need to, but we have seen a great 
deal of cooperation against some very serious and difficult 
targets. They picked up really high level people from the 
Taliban and helped us get the highest level people from the 
Taliban, and we have seen, I think, more and more cooperation 
as the months go on. And I think particularly since about 
December of last year we have seen a lot more cooperation and a 
lot more effective cooperation.
    Mr. Yarmuth. Again, looking kind of universally at this 
problem, one of the things that I think frustrates all of us is 
that we look across the spectrum of Iraq, Pakistan, 
Afghanistan, myriad places, and see a variety of settings and 
situations, and yet there really doesn't seem to be any example 
of where the war on terror has succeeded. Again, going to the 
question of expectations, are we looking at something at which 
there will never be success, or just we haven't found the right 
approach to success?
    Mr. Boucher. I think, to get back to your question about 
expectations, it takes a long time. I think, you know, I 
certainly think we are all going to be taking our shoes off at 
airports for decades to come. We are going to have to integrate 
a certain level of higher security in all our lives and all our 
actions throughout the world and all our embassies, and what my 
colleagues will do in the future.
    At the same time, this process of sort of getting 
government control, getting legitimate government control over 
all parts of the planet, you know, it has moved forward. It is 
certainly not done yet, and certainly not done in very 
important parts of my area, but I can see it proceeding. I can 
see the Afghan government building up, building out, expanding 
throughout its territory. I can see the pressure on the 
extremists in Pakistan and in Afghanistan.
    You know, as we look, you say where has it succeeded. There 
are countries you could cite, I guess Yemen, Sudan, other 
places like that have turned around and have been forces 
against terrorism. In the area that I deal with, I think what 
we did last summer was to look at what works in Afghanistan, 
and what works in Afghanistan is a very comprehensive strategy, 
while integrated strategy where you move the troops in to kick 
out the Taliban and fight the bad guys, then you bring in 
district officers, government officers, agents from ministries, 
policemen, local forces to help provide safety, security, and 
justice to the people there, and you bring in the AID projects, 
the irrigation, the new crops, the roads, the electricity. If 
you do that in a comprehensive and integrated manner, we have 
been able to stabilize large parts of Afghanistan that way.
    As we see some of these problems, they are more and more in 
certain areas of Afghanistan rather than throughout the 
country.
    The same with the narcotics problem. One of the things you 
will see, despite the enormous crop that is going to be 
harvested this year, there are going to be more parts of the 
country that are largely poppy free. The problem of poppy is 
more and more associated with the areas of insurgency. Again, 
the basic question of having government control and giving 
people the benefits of government throughout the country.
    So I think we have seen what works in parts of Afghanistan, 
and the reason we came into Congress this year with a 
supplemental request and the funding request of $11.6 billion 
over 2 years for Afghanistan is because we looked at what 
worked and we said we have to do this more generally throughout 
the country.
    Mr. Yarmuth. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Tierney. Mr. Boucher, as you know the votes have been 
called, but there are three quick votes, and we are going to 
run right up to the time on the 15 minute vote and go down 
quickly. There will be a 5 and a 5. We will be back within 15 
minutes. But Mr. Shays is going to take his 10 minutes now that 
will run us up to that time.
    Mr. Shays, you go ahead; 10 minutes.
    Mr. Shays. Mr. Boucher, I appreciate your being here. I 
think this is a hugely important issue. I have tremendous 
concerns about Pakistan. I think you have basically a dictator 
who took control from a secular government, and now to maintain 
control he is responding, in my judgment, to sectarian wishes. 
So the irony is I think he is more vulnerable to the sectarian 
pressures than a duly elected secular government would be. That 
is one bias I have.
    Another bias I have that I want you to respond to is I find 
it outrageous that, of the 46,000 troops, we are 26,000. I have 
learned that of the 20,000 NATO troops, only four countries are 
at the tip of the spear, so most of our troops are in direct 
line of fire, whereas some of the NATO troops.
    I would like you to tell me why only four NATO troops are 
putting their soldiers at risk, because I find that just 
astonishing. With what we have to do in Iraq and Afghanistan, 
it seems to me our allies, if they don't agree with what we are 
doing in Iraq, should at least agree in Afghanistan. So I would 
like you to comment on that, as well, and then I have some 
other questions.
    Mr. Boucher. On the question of sort of the stability of 
Pakistan and the military rule of military government there, I 
think on the one hand we all think Pakistan would be better 
off, more stable with an elected government, and that is why we 
are pushing so hard for fair and free elections this year, why 
we are supporting that with our rhetoric but also our money and 
our effort, why we are working with all of the political 
parties to try to achieve that. We believe that democracy is a 
force for stability. We believe that an elected government, 
particularly one that brings together the centrist parties, 
would be a better base on which to fight extremism in the 
country.
    Frankly, I have heard that from political leaders, from 
opposition parties. I have heard that from President Musharraf, 
himself. I think everybody recognizes that is the case, so we 
all look to elections to be a force for stability.
    We have seen a lot of change in Pakistan in the last 8 
years. It is not purely a military dictatorship. We have seen a 
lot of politics, seen the growth of civil society. We have seen 
an explosion of media, free press. We have tried to support 
that and speak out in favor of it whenever it was under threat. 
But in the end it has created a direction for the society, more 
modern, moderate, open direction for the society, and one that 
has done well by most of its citizens.
    So I think, as you look at the problems of extremism, it is 
just sort of the general process of building a stronger, 
moderate center is one that is very important to all of us. We 
have tried to support that.
    Mr. Shays. How about NATO?
    Mr. Boucher. NATO has, first of all, a lot of different 
countries involved in a lot of different ways. I do think we 
have to say that every contribution is appreciated and every 
contribution is important, whether you are trying to run a PRT 
in the north somewhere, where you may be dealing with local 
authorities and trying to extend the Governor and the 
government, or whether in the south fighting the Taliban and 
the drug traffickers.
    Mr. Shays. Why is it that we only have four countries 
willing to engage in battle?
    Mr. Boucher. It is probably more than four, but not too 
many more than four. I would have to do the counting.
    Mr. Shays. Why?
    Mr. Boucher. And the Canadians, the Dutch, the British, us. 
There are a few others, Romanians and a few others.
    Mr. Shays. What about the French, the Italians? I mean, do 
they----
    Mr. Boucher. They are there. Some of them are in different 
places doing different missions. We have argued very strongly, 
every NATO meeting we go to the Secretary of State, Secretary 
of Defense, for countries to drop what are called their 
caveats. You know, We will do this, but won't do that. We will 
go here, but not there. And we have had a little bit of success 
over the course of the last 6 months getting some of those 
caveats dropped by some of the countries. We have had some 
success in getting more NATO troops there. There have been 
about 7,000 troops promised since last fall, but, again, half 
of those are American. Big chunk of British, Australians, a few 
others like that, Canadians. So the mission rests on----
    Mr. Shays. Let me ask you, what is their argument?
    Mr. Boucher [continuing]. The countries to participate.
    Mr. Shays. What is their argument? They can make an 
argument against Iraq. What is their argument against 
participating by risking their lives in Afghanistan like our 
troops are? What is their argument for not doing that?
    Mr. Boucher. It depends on the country. Sometimes you get, 
well, you know, we are doing this in Africa, we are doing this 
in Bosnia, we are doing this in Kosovo, we don't have any more, 
you know, available. Sometimes it is, We don't have popular 
support and parliamentary support for a war fighting mission. 
We only have that support from our parliament to go on a 
peacekeeping or a humanitarian mission. There are a variety of 
things that you hear.
    Mr. Shays. The bottom line for me is we have long-term and 
short-term needs. Our short-term needs are shutting down 
training camps, stopping threats to U.S. coalition troops in 
Afghanistan, and that is emanating from Pakistan. A long-term 
would be education reform, democracy building, women's rights, 
and so on.
    Tell me how successful we have been on the short term.
    Mr. Boucher. I think, first of all, I think you are right 
in the way you put it. We are involved in some transformations 
that will take years, but we are also looking for goals and 
results that need to be done now because people are under 
direct threat.
    I guess I would come back and say we have had some 
successes in the short term. Part of the fact that we have been 
able to blunt the Taliban intentions and that the Taliban has 
failed this year in Afghanistan is because what we are doing in 
Afghanistan, but also because there is pressure on them and on 
the Pakistan side. So we have seen a great number of very 
dangerous people picked up and killed or arrested with the help 
of Pakistan. So we are making progress. We are not done with 
the problem.
    Mr. Shays. My colleague had a question that he wanted to 
ask.
    Mr. Boucher. Sure.
    Mr. Burton. Thank you for yielding.
    I don't know that this question has been asked. Have the 
tribal leaders or any of the tribal leaders been cooperative in 
trying to stop the Taliban leaders?
    Mr. Boucher. Sure.
    Mr. Burton. To my knowledge, that hasn't been really 
illuminated here. I mean, Musharraf has pulled his troops out 
of a number of areas, and the impression is that Al Qaeda has 
taken over those areas because of the cooperation of the tribal 
leaders. So what I would like to know is do we have cooperation 
with a lot of the tribal leaders? And are they working with us 
and Musharraf to try to----
    Mr. Boucher. I think we have seen cooperation between the 
Pakistan government and the tribal leaders. We saw the tribal 
leaders in some areas turn on the Uzbeks, for example, earlier 
this year, turn on some of the Taliban that were coming out of 
that area.
    I think it is true that, as the checkpoints and the 
government presence in Waziristan was removed last fall, the 
there was an influx of fighters, that Al Qaeda found more 
freedom to operate there, and then since about December there 
have been some steps by the government and the tribes to exert 
more control. There have been new forces that have been moved 
in there. There have been checkpoints re-established and taking 
back control.
    Mr. Shays. Before my time ends, if we saw Osama bin Laden 
in Pakistan, what would likely our posture be? Would we wait to 
get permission and then fear that we would lose him, or would 
we just go in and get him, if he were in Pakistan?
    Mr. Boucher. I think we would work with the Pakistanis to 
make sure that one way or the other he was gotten.
    Mr. Shays. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tierney. The gentleman yields back.
    Thank you for your forbearance and your patience, Mr. 
Ambassador. We are going to be gone for about 10 or 15 minutes, 
if you would like to take a little recess. We will be back for 
the concluding questions.
    Mr. Boucher. Thank you.
    [Recess.]
    Mr. Tierney. Mr. Ambassador, thank you for your patience on 
that. We are going to reconvene.
    Since we have such a great bipartisan committee here, Mr. 
Shays is speaking on the floor in another matter. He is 
perfectly comfortable with us proceeding in his absence. He 
will be back. Mr. Hodes, who was next to speak on this, is not 
certain that he is going to be able to come back, because he 
had a conflict. Mr. Van Hollen I understand is on his way back.
    While that is all happening, I thought I would take the 
prerogative of the Chair and ask a few questions that we are 
probably going to have to put off until the end, but may not 
have to do that now.
    I am sort of struck, I have to tell you, that with what I 
see as somewhat of a defense of the Musharraf actions here in 
all ways, and it seems to be the administration's position, so 
I don't leave it just with you, but it doesn't really seem to 
me to be what is happening on the ground, from our own 
observations or from the myriad of people that we have talked 
to.
    I know you have spoken to a range of people, and so do we, 
an opportunity not just while we were in country but also back 
here, as witnesses and testimony. It seems like there is Mr. 
Musharraf's view of things and perspective and then everybody 
else's on that, and that the administration is sort of coming 
down with the Musharraf view.
    I am struck by your repetition that you think we are 
getting cooperation on the border area because a couple of 
people have been arrested and, you know, you say there is a 
number of troops on the border. My observation was they are not 
quite on the border, that they are up toward the border and 
that you have a few Frontier Corps groups up on the border, and 
they are not very active in that.
    The issue I am seeing here is we have a government that 
appears--and Mr. Shays got a hit on that--to lack legitimacy 
because you have a person that took office through a coup, has 
been operating both as a military general and as a president. 
We have questionable progress toward election shares, some real 
serious concerns about whether they are going to be free and 
fair. And then we have today reported in a number of ways about 
a national intelligence estimate which apparently is classified 
but, par for the course, executive branch people seem to be 
chatting about it and then they want to blame it on Congress 
for a leak, I am sure, even to the point where people who are 
not talking directly but about it are testifying in front of 
congressional committees.
    What they are telling us is that, you know, despite what 
you say and Mr. Musharraf says about all this activity, that 
area leaves Al Qaeda better positioned to strike the west, 
according to one of the National Counter-Terrorism Center 
commentators. John Kringen, who is the Deputy Director for 
Intelligence at the CIA, says Al Qaeda appears to be fairly 
well settled into the safe haven and the ungoverned spaces of 
Pakistan. We see more training, we see more money, we see more 
communications. It just goes on and on.
    The new report concludes the group is stronger than it has 
been in years. There is a heightened concern over Al Qaeda's 
operational activity and operational levels among the Pakistan-
Afghanistan border. One U.S. official said, ``At the end we see 
a worse condition than it was before the agreements up in 
Waziristan.'' And it goes on and on that way.
    So clearly to some of us, apparently not to General 
Musharraf or to you, there is not the kind of activity that we 
would hope we would be getting out of somebody that is supposed 
to be a partner, and a lot of it may well be because of the 
fear of the instability of his government.
    We look at reports in the paper on July 8th about a United 
States' aborted raid on Al Qaeda chiefs in Pakistan in 2005. 
Reportedly the reason that we didn't go in, even though there 
was identification of targets we wanted to get, was a fear of 
the instability of the Musharraf regime and the fact that we 
were afraid of what ramifications it might have.
    Wouldn't we be better off insisting that there be free and 
fair elections, that all participants be allowed to be in the 
country and take part in them so that there was a legitimacy 
behind any Pakistani government, so that when we needed to go 
after Al Qaeda types of Taliban in that area we wouldn't have 
to fear the instability of the government, would have a 
properly elected, duly appointed government with the legitimacy 
that could stand with us and do something there, as opposed to 
what we have now?
    Mr. Boucher. Sir, I have tried to be objective with my 
statements here and tried to look at the whole picture. I have 
said the agreements in Waziristan didn't work. There was an 
influx of Al Qaeda. They found more freedom of movement when 
checkpoints were removed and they have been able to reorganize 
themselves to some extent in that area. That is a current 
threat, and that is an important threat to all of us--to 
Pakistan, Afghanistan, and to our homeland. We need to deal 
with it. We need to deal with it working with the Pakistanis.
    But at the same time I think we need to recognize what they 
have done and we need to recognize the direction they are 
headed in and we need to look at how to help them to be more 
effective and completely effective.
    Mr. Tierney. Well, I guess we don't have disagreement about 
looking at what they have done.
    Mr. Boucher. Yes.
    Mr. Tierney. I recognize Pakistanis have died there, and we 
would be wrong to not understand that they have suffered pain 
on that and people have given their lives and made the effort, 
and it would be wrong to not recognize that some people have 
been killed or arrested with their cooperation. But the fact of 
the matter is you say looking forward what they are doing. When 
we look forward from our perspective, you know, and see that 
they are not doing all that you seem to indicate you believe 
they are doing, you know, and their own NIE and reports of the 
NIE seem to indicate that, as well, that area is not getting 
the attention and the action that is needed.
    You referred a couple of times to the Uzbeks out there. Let 
me tell you, we were there during that operation and we got 
variants of estimates between 100 Uzbeks to 3,000 Uzbeks. 
Depending on which intelligence agency you talked to, which 
military group, or what government you talked to, it ranged 
back and forth, but almost all of them recognized the fact that 
there essentially was one Taliban group fighting another 
Taliban group, with the government putting its foot on the 
scale at the tail end and then claiming that it had been 
instrumental in helping remove the Uzbeks.
    If that is what you are referring to as, you know, their 
great efforts and looking forward how much they are being 
cooperative with us, I think we have a problem. You know, the 
fact really is that we are giving enormous amounts of military 
money, but I don't see any accountability of that being spent 
on equipment that will help in an anti-terrorism, international 
terrorism effort more so than stocking up on what may be a fear 
they have butted into you. With enormous moneys and basic 
support, then I don't think we have any accountability at all 
in terms of how much of that really goes for reimbursement of 
what they might have spent on military efforts, particularly 
when those military efforts don't show any fruits being born 
here.
    I think in a nutshell that is really where we are going at 
here, and wondering why this administration continues. You say 
you have been objective, and I appreciate that, but I guess 
some of us are saying you may be too objective. You may not be 
standing here taking a subjective enough look at weighing in on 
what has not been done here and what could be done if we had, 
you know, a government with more legitimacy and willingness to 
stand up there and take a tough stand, both from the border 
area and as they at least started to do with some of the 
internal extremists that are going on with Red Mosque the other 
day.
    Mr. Boucher. Let me try to answer quickly, but these are 
serious questions.
    There is no doubt in our mind that there are real dangers 
that emanate from this area. There is no doubt in our mind that 
we need to deal with them and we need to work with the 
Pakistanis to deal with them more effectively, and that is what 
we are focused on. We are focused on getting after the rest of 
the Taliban, the Taliban on the Pakistan side, their 
supporters, Hakini network, people like that, focused on how to 
identify and get the Al Qaeda elements that are there, how to 
get the training camps, leadership bases, and things like that. 
That is something that is a constant daily, very close, very 
dedicated effort that we carry on.
    Would all this be aided by an open election and democratic, 
incredible election and a better-strengthened, moderate center 
with more legitimacy in Pakistan? Absolutely. And that is why 
we have seen an election as a force for stability and a 
successful transition from military rule to civilian elected 
government this year as being one of the key elements in 
helping Pakistan come together in a moderate center in order to 
fight extremism better.
    Mr. Tierney. Are we not conditioning some of our financial 
assistance on the performance of free and fair elections? 
Aren't we making it really clear to this Musharraf 
administration that, unless they start working more 
cooperatively and have the election and work more cooperatively 
in getting the registration in order, unless they do all the 
other things that are necessary to have a truly free and fair 
election, shouldn't we condition some of our resources that go 
to him, particularly the basic support, which I think there is 
some argument that some of that is a slush fund? Anyway, 
condition some of that on performance? Doesn't that make sense?
    Mr. Boucher. Well, I mean, some of our money that we give 
to Pakistan is reimbursements, and so there are conditions that 
we pay for things. If they didn't have the 85,000 troops on the 
border area, God knows what would be going on out there. Not 
anything we could deal with ourselves, I am sure.
    So the fact that they are there, they can do more, we can 
all do more. We are doing more on the Afghan side. We have 
asked for enormous influx of funds from Congress, which 
Congress has supported, so we can do more on the Afghan side. 
On both sides of the border there is a lot more to do.
    In terms of sort of conditioning our other assistance, you 
have talked about the importance of education, getting a better 
public education system in Pakistan. You have talked about the 
support for democracy, for civil society, justice, things like 
that, and we need to do all those things.
    It is not a question of conditioning and saying, unless you 
do this, unless you do that. It is a question of saying all 
these things are important to us, where there is no doubt in 
anybody's mind the United States wants to see a free, fair, and 
open election in Pakistan this year. There is no doubt in 
anybody's mind that we are working very hard to achieve that, 
both in our work directly with the political parties, but also 
our work with the Election Commission and everything we do in 
Pakistan.
    Mr. Tierney. I think, Mr. Ambassador, there is a real 
question about the urgency behind our wanting these elections 
to be free and fair and the urgency of making sure that it 
happens. I think that would be resolved by conditioning it, 
because I think that some people might not take it as seriously 
unless we do something more serious on that.
    I am going to interrupt my questions because Mr. Van Hollen 
has joined us, and he is entitled to 10 minutes of questioning.
    You are recognized for 10 minutes, Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank you for 
holding this series of hearings on the situation in 
Afghanistan, Pakistan, and other parts of South Asia.
    Mr. Ambassador, let me just join others in welcoming you 
and thanking you for your service to our country. It is much 
appreciated.
    As I understood your earlier testimony, you had a number of 
questions related to an article that appeared today on the 
front page of the Washington Post, essentially entitled: U.S. 
Warns of Stronger Al Qaeda. As I understood your response, you 
said you were not familiar with that report; is that correct?
    Mr. Boucher. I have seen the Washington Post story, but the 
Washington Post seemed to have gotten the intelligence report 
before it came to my reading.
    Mr. Van Hollen. All right. Here is my question. One of the 
things we as a country decided after 9/11--it was one of the 
key recommendations of the 9/11 Commission--was that we would 
try and get away from the stovepipe approach to collecting and 
analyzing information so that all people who were experts and 
had information to contribute with respect to this kind of 
analysis would participate.
    I have to say I am surprised that you woke up this morning 
and read about this in the Washington Post along with the rest 
of us. This is obviously no fault of your own if you weren't in 
the loop, but it is surprising to me, given the fact that we 
did say we wanted more people to be involved in this process. I 
recognize it is an intelligence analysis.
    On the other hand, you are essentially the senior policy 
person when it comes to South Asia. You obviously have a lot to 
say with respect to interpreting and analyzing information 
regarding the political and military situation in Pakistan. I 
have to say I am surprised to hear you didn't know about the 
report.
    Can you enlighten us a little bit as to how this process 
works, should work?
    Mr. Boucher. Well, if I believe what I read in the 
Washington Post, the report isn't even finished yet. Generally, 
NIEs, they finish it up before they send it around.
    You know, that said, I am part of the information and 
analysis process every day, and I am constantly reading the raw 
material and the reports that are coming in from embassy 
sources and intelligence sources all over, all kinds of 
different sources, and I have a constant dialog with the folks 
in the intelligence community. We meet on a very regular basis. 
I see somebody every morning that I talk to.
    I know this is kind of the summary that is being done at 
this moment, that I may not have seen that particular document 
yet, but the underlying trends are something I think I am very 
familiar with because of these constant discussions, and we 
have talked about how the Al Qaeda has presence in Pakistan, 
has grown, and how it has been reorganized, and what the 
dangers are from that.
    Mr. Van Hollen. OK. Well then do you share the assessment 
that was given by one of your colleagues who is in the 
intelligence community before the Armed Services Committee 
yesterday, the House Armed Services Committee, John Kringen, 
who said Al Qaeda seems to be fairly well settled into the safe 
haven and ungoverned spaces of Pakistan? Do you agree with that 
conclusion?
    Mr. Boucher. I basically agree with the conclusion, but it 
is not the whole story.
    Mr. Van Hollen. All right. I guess my question is: what has 
our position been, you as the head policymaker for this region, 
in terms of communicating to the Pakistani government whether 
we support their decision to essentially have these hands-off, 
described by your colleagues as safe haven areas, where, as I 
understand it, according to public reports our intelligence 
community has included, that has allowed Al Qaeda to strengthen 
itself. As he says, we see more training, more money, more 
communications. What have we said to the government of Pakistan 
with respect to our position on whether that was a good idea or 
not a good idea?
    Mr. Boucher. Sir, I think we have made absolutely clear 
that the presence of Al Qaeda in Pakistan is a danger to all of 
us, in whatever strength they are at any given moment, and that 
we look to them for cooperation, as we have since 9/11, for 
cooperation against the Al Qaeda elements and the Al Qaeda 
elements who have been able to take refuge and operate from 
Pakistan.
    Mr. Van Hollen. Do you agree with your colleague----
    Mr. Boucher. It is a constant effort.
    Mr. Van Hollen. Do you agree with your colleague that 
providing a safe haven has allowed Al Qaeda to strengthen 
itself?
    Mr. Boucher. I do, but providing safe haven, I mean, let's 
not draw improper implications from that. This is not done with 
the authorization of the Pakistani government. They did some 
things that led to that influx and strengthening, but the 
Pakistani government has made very clear through its words and 
its actions that it, too, is opposed to extremism, it, too, is 
opposed to the presence of Al Qaeda. In these last few weeks 
you have seen President Musharraf at Jirga and Peshawar making 
that explicitly clear.
    Over the course of time, you have seen hundreds of arrests 
of Al Qaeda people in Pakistan and you have seen pressure on 
various Al Qaeda associates and people that are in these tribal 
areas.
    We know there are still a lot of them there. There is a lot 
of training. There is command and control that are still there 
that need to be gotten out. But they are not there, you know, 
as a policy of the Pakistani government.
    Mr. Van Hollen. I understand. But, as you said, words and 
actions, and one of the actions the Pakistani government took 
was obviously to enter into this arrangement with the leaders 
in that region, and at least our publicly reported intelligence 
assessment is that has resulted in strengthening of Al Qaeda.
    Let me just go on and pick up on a point that the chairman 
and others have made with respect to making sure we have open 
and democratic elections.
    This committee, back in May, took testimony from a Dr. 
Samina Ahmed, who is the South Asia project director for the 
International Crisis Group.
    Mr. Boucher. Yes, I know.
    Mr. Van Hollen. I am sure you know her.
    Mr. Boucher. Yes.
    Mr. Van Hollen. She provided testimony to this committee 
via satellite. Essentially, what her message was was that 
Musharraf had actually relied, to a certain extent, in terms of 
putting together a coalition, on some of the more religious 
parties in Pakistan to provide the majority he needed 
essentially to stay in power, in contrast to some of the more 
moderate parties.
    In fact, I am just reading from her testimony. She said, 
``Lacking a civilian constituency, Musharraf remains dependent 
today on the religious parties, particularly his Coalition 
party in the Baluchistan government, the JUI, the pro-Taliban 
party, and the major partner in the MMA alliance to counter his 
moderate civilian opposition.'' That is her testimony.
    My first question is: do you share that assessment?
    Mr. Boucher. That is one of the results of the election in 
2002 and some of the subsequent arrangements, and that is one 
of the important things about a new election: it gives an 
opportunity for the moderate center to reform.
    Mr. Van Hollen. But, I mean, do you share that essential 
analysis of his political reliance on some of the religious 
parties to maintain his governing coalition?
    Mr. Boucher. In some of the provincial, especially 
Baluchistan, he does rely on the religious parties. In the 
National Assembly, all of them are in opposition to Musharraf, 
and you have seen that in recent days the way they have spoken 
about the Mosque, frankly.
    Mr. Van Hollen. Now, in terms of the position we have taken 
with respect to the upcoming elections--and I appreciate your 
statement that we are pushing for free and fair elections--in 
specific terms, have we publicly called on President Musharraf, 
for example, to make sure that Benazir Bhutto is allowed to 
return to Pakistan?
    Mr. Boucher. We have said that all the parties need to be 
able to participate and the voters need to be given real 
choices, but when it comes to individuals, I mean, each of them 
faces a particular situation with regard to justice and other 
things in Pakistan, and so no, we have not gone to endorse 
specific individuals.
    Mr. Van Hollen. Well, this does get to the chairman's 
question, it seems to me, about the urgency and the content, 
policy content behind the words, because I think many people 
would agree that, with respect to the People's Party, that if 
you have a leader who is the, you know, essentially the 
selected leader of her particular political party, and you 
don't allow them to come back and participate in the elections, 
clearly you are not allowing for a free and fair election.
    It seems to me, if our position is that we want free and 
fair elections, we need to be making sure that anybody who 
wants to run individuals included as the head of their party 
are allowed to return.
    Why shouldn't we do that? How is it consistent to say we 
want free and fair elections but not call upon the president to 
allow the return of the leader of one of the major opposition 
parties?
    Mr. Boucher. Because our job as the United States I don't 
think is to endorse any particular party or any particular 
candidate.
    Mr. Van Hollen. Let me interrupt. I am not talking about 
endorsing any candidate. I am not talking about endorsing any 
candidate; I am talking about making real the statement that we 
want free and fair elections. I am saying we want to call upon 
the government to make sure that any individual who wants to 
participate--of course we should not go anywhere near endorsing 
any candidate in any election in Pakistan, but it seems to me, 
wouldn't you agree, that to have a free and fair election, 
every individual or certainly party leader who wants to 
participate in the election should be allowed to be present in 
Pakistan and fully participate?
    Mr. Boucher. There are three different leaders of political 
parties in Pakistan who are outside the country, three major 
leaders----
    Mr. Van Hollen. Right.
    Mr. Boucher [continuing]. Who are outside the country, and 
each has different circumstances, different judicial 
circumstances and other things. They are out for different 
reasons, they face different things if they go back. Ms. Bhutto 
talks about going back, talks about facing justice. Whether she 
does that or not depends to some extent on what she decides and 
how it works out with the government. But, you know, an 
individual's circumstances I guess we think have to be 
addressed by the individual and the government.
    Mr. Van Hollen. If I could just, Mr. Chairman, one question 
with respect to the situation in Afghanistan. I wrote a letter 
to the Secretary of State with respect to the situation there.
    Mr. Boucher. I have seen it.
    Mr. Van Hollen. I think we all agree on this issue, which 
is we want to make sure that, as we aggressively go after Al 
Qaeda and aggressively go after the Taliban, we do everything 
possible to limit civilian casualties, non-combatant 
casualties. After all, part of the mission is to make sure we 
win the hearts and minds of the people in Afghanistan. A 
concern that has been raised is that, partly as a result of the 
fact that there are, according to some assessments, not enough 
United States and Allied forces, ground forces, in Afghanistan, 
we have relied more on air power, which is less discriminating 
in terms of the targets, and that overall--and Karzai, himself, 
the president of Pakistan [sic], has said that he thinks that 
the level of civilian casualties has not been justifiable.
    If you could just address this issue, because clearly we 
want to do everything we can to root out Al Qaeda and the 
Taliban, but it is clearly counter-productive if, in the 
process of trying to do that, we lose the support of the local 
population, because that makes it more difficult to accomplish 
our mission.
    Mr. Boucher. Absolutely, sir. I think we all understand how 
very important this is.
    I was just at the Rule of Law Conference for Afghanistan 
that was held in Rome last week, and President Karzai I think 
put it well. He said, you know, we are all there to protect the 
innocents of Afghanistan, and it is the innocent people of 
Afghanistan that deserve our protection and can't be made 
casualties of the fighting.
    We know we are fighting an enemy that puts civilians in 
harm's way. We have had cases where they have, you know, kept 
people locked up inside compounds where they were operating 
from. We have had cases, you know, frequently where they take 
refuge in civilian compounds and areas, knowing that if we go 
after them there will be some civilian casualties, and then 
they publicize it.
    So it is a difficult enemy, an enemy that often goes out to 
kill civilians and kill school kids, kill school teachers, kill 
policemen. Recognizing how difficult it is for our military 
people, I think we and our military all understand how critical 
it is to success and the bigger mission that they do everything 
that they can to minimize civilian casualties. So each one of 
these incidents is taken very seriously. Each one of these 
incidents is looked at very carefully. We do have strict rules 
of engagement that we are always trying to improve, and we need 
to do better. I think we are trying very hard to do that.
    Mr. Van Hollen. I realize and understand fully the tactical 
challenge here, given the enemy that is being faced and the 
fact that they have been unscrupulous and, as you say, have 
killed civilians on the other side in brazen sort of terrorist 
type activities.
    Mr. Boucher. Yes.
    Mr. Van Hollen. No doubt about it. But, as you say, in 
order to accomplish the larger mission, we need to make sure we 
go after them without in any way enlarging or expanding their 
political support.
    Mr. Boucher. Yes.
    Mr. Van Hollen. As Karzai has said, it has been at least 
his feeling, as he publicly stated, that we can do better.
    Mr. Boucher. Yes.
    Mr. Van Hollen. So I think we just need to make sure that 
we----
    Mr. Boucher. I should address the other half of your 
question, air power versus civilian versus military forces. I 
am probably not the best qualified to try to address that. What 
I do know is that there is still a shortfall in the NATO force 
requirements, and we work very hard to try to get people to 
meet that force shortfall, and then there is the question of 
flexibility of the forces. Our feeling is that, you know, 
whatever commanders decide they need, they need to have the 
tools available. And we have pushed very hard on all countries 
to give the NATO commanders the flexibility and the capability 
to do the job in the best way possible with the minimum, 
absolute minimum, of civilian casualties.
    So our feeling is that having that additional flexibility 
and capability would give the commanders more tools to use, and 
perhaps make it a little easier for them to avoid these 
casualties.
    But I want to say that whatever they have as tools, 
whatever they can use, they make a very serious effort and 
continuing effort to improve this in order to avoid civilian 
casualties.
    Mr. Van Hollen. Thank you. But do you believe that the fact 
that we haven't hit the full troop levels that we think that we 
need, that we are somewhat short, has resulted in a somewhat 
over-reliance on air power that would not otherwise be used?
    Mr. Boucher. I have seen it said, but I am not qualified to 
judge.
    Mr. Van Hollen. Thank you.
    Mr. Boucher. Thank you.
    Mr. Tierney. Thank you.
    Mr. Ambassador, does it at all trouble the State Department 
and the administration that Julaluddin Hakini continues to be 
free, despite the Musharraf administration and their military 
telling us they know where he is, and despite some pretty 
prevalent rumors that he may also be providing bin Laden 
protection as his guest up under the culture situation? I mean, 
why is it that we don't press harder for more definitive action 
to be taken against Mr. Hakini?
    Mr. Boucher. I think he is one of a number of facilitators 
of the Taliban on the Pakistani side that are part of the 
problem and that do need to be taken out of the picture, 
arrested, eliminated, whatever. And, you know, there are a 
number of areas where we have seen support for the Taliban from 
people and groups on the Pakistani side. The Quetta Shura 
around Baluchistan was one of the major problems that we had 
earlier this year, and we have gone after--Pakistanis have 
helped us go after a number of those people.
    There is a Hakani network. There are other facilitators. 
And yes----
    Mr. Tierney. I mean, it is as simple as turning on the TV 
and watching Frontline, where they are interviewing members of 
the Musharraf regime saying, Yes, we know where Mr. Hakani is, 
and we know who he is. And when they are asked point blank why 
don't you just go in and get him, no answer. I mean, how is it 
that we are not pressing for something as simple as that to be 
done? Everybody understands the role this individual is playing 
and understands the need to do it.
    Mr. Boucher. I think we all do understand the role that he 
is playing and is one of the targets that needs to be gotten.
    Mr. Tierney. But not the inability to do it because they 
tried and failed, but the unwillingness to try to do it I 
should think would somehow color what has otherwise been by you 
pretty rosy picture of the cooperation of the Musharraf 
government.
    Mr. Boucher. We have talked about things that have been 
done and things that remain to be done. This is one of the 
things that remains to be done.
    Mr. Tierney. I say so.
    You know, I am going to leave that issue and go to another, 
but a quote that one of our witnesses at our most recent 
hearing had is, ``The choice that Pakistan faces is not between 
the military and the Mullahs, as is generally believed in the 
west, including the United States; it is between genuine 
democracy and a mullah military alliance that is responsible 
for the religious extremism that poses a threat to Pakistani, 
regional, and international security.'' That was a sentiment 
that I found to be prevalent through all segments of the 
Pakistani society--people testifying here, people that we have 
met here in Washington, and the myriad of people from different 
occupations, as well as different political parties--that we 
met there.
    I would hope that this administration at least has some 
recognition that is a fairly prevalent feeling amongst 
Pakistanis, and if we want to start being friends with the 
Pakistani people, as opposed to one individual who took over a 
coup in 1999, that we have to somehow reflect in our policy and 
our decisions that we understand that is their feeling, and 
maybe press harder in some areas.
    Let me just cover some other areas quickly so I can let you 
go on this. I appreciate the time you are spending.
    What is our strategy with respect to the FATA area, the 
Federally Administered Tribal Areas? You know, who is going to 
be our development partner up there? To whom are we going to 
give this substantial amount of money that you have mentioned? 
Is it going to be to local, non-government officials, to tribal 
leaders, to international NGO's? It is a considerable amount of 
money. How do we make sure that it is accounted for and that it 
goes to the purposes for which we intend?
    Mr. Boucher. If I can comment on the Mullah military 
question?
    Mr. Tierney. Absolutely. Sure.
    Mr. Boucher. That certainly is a prevalent view, and it 
has, I think, been a clear view in the past that, you know, the 
Mullah--if you look at Pakistani history and the history of 
some of the military regimes, you see an alliance at various 
moments with some of the more extremist religious elements. 
That was accentuated particularly during the anti-Soviet fight. 
I mean, that was the core: the mullahs, the military, and the 
Mujah Hadin fighting the Soviets. So all the contributions that 
we and others made helped solidify that kind of alliance.
    But I think, you know, times change, things change, and 
circumstances change over time. I find it hard to say there is 
a military Mullah alliance in Pakistan on the day that the 
military has just completed an operation against an extremist 
mosque.
    Mr. Tierney. I guess the point there being it took them 
several months to get to that point. The people that make the 
statement rather recently----
    Mr. Boucher. It took them 20 or 30 years to get to that 
point, but----
    Mr. Tierney. Well, this particular government, but for 
Musharraf it took several months----
    Mr. Boucher [continuing]. Particularly they have been 
dealing with it in the last 8 or 9 months.
    Mr. Tierney [continuing]. From the time this started to do 
it.
    Again, going back to Mr. Hakani and example after example 
of sort of an allowance for things to fester and to buildup 
without action being taken until absolutely forced to take it. 
And then yes, some people are going to be upset, but the point 
is, you know, but for their fear for that and what some people 
perceived as that alliance, things would have been done a lot 
sooner and would continue at a lot higher level on that.
    But to the other point----
    Mr. Boucher. Let me answer your question----
    Mr. Tierney. Please.
    Mr. Boucher [continuing]. On the tribal area funding. One 
of the key elements I think of the plan that was developed, the 
tribal area development strategy, was to build the institutions 
that can do things and handle funding and to build a tribal 
area development organization that can reliably use money, 
build the schools, build the vocational training centers, put 
in the roads, whatever needs to be done under that plan. They 
can do it reliably, effectively, get results, provide the 
information, make sure it was done the right way and money was 
not wasted.
    And so a lot of the effort at the beginning of the program 
is, in fact, to build those institutions and capabilities 
there.
    We also run----
    Mr. Tierney. Can I just interrupt? Where do you think that 
stands right now? I mean, do you think you have completed that?
    Mr. Boucher. I think it is just starting, basically. We are 
just getting started on a lot of this stuff.
    We already have some pretty effective counter-narcotics 
programs in the area where we build roads, we provide training, 
do a lot of different things with counter-narcotics money in 
the tribal areas, and in some places we are able to do that, 
some not so well, but we use contractors to do things there. We 
are able to check up and make sure it gets done.
    We have an AID program to build 65 schools in the tribal 
areas, and we use contractors there who do the work, but we are 
able to check and make sure it gets done properly.
    Mr. Tierney. I don't know if you had something else to say. 
I just wanted to make sure we covered that point. Are you 
completed on that?
    Mr. Boucher. Yes.
    Mr. Tierney. Thank you.
    The money that we spend in Pakistan, broken down a little 
bit into different categories, and I am interested in your 
comments on some of the accountability. The budgetary support 
aspect, $200 million: how do we account for that?
    Mr. Boucher. A couple of different ways. I mean, account 
for it, we know where the money goes.
    Mr. Tierney. Well, originally.
    Mr. Boucher. The question is----
    Mr. Tierney. You deliver a check and you know who you 
deliver the check to. After that, where does it go?
    Mr. Boucher. How do we know what gets done with it?
    Mr. Tierney. Right.
    Mr. Boucher. A couple of things. First, the first purpose 
of the money and providing it as budgetary support is so that 
they can take care of budget and fiscal policy in a way that 
strengthens the economy. It is macro economic reform money. So 
the first purpose is to check whether it is achieving macro 
economic goals in terms of budget deficit and a variety of 
other sort of indicators of macro economic stability, because 
that is why we give them money through their budget.
    Second purpose is we sit down, we have a series of meetings 
every year called the Shared Objectives Exercise, and we sit 
down with them and we define how our money shall be used. So of 
that $200 million, for example, we define that, I think it is 
$56.25 million will be used on education. Another chunk gets 
used, $50 million, for earthquake recovery. Another chunk gets 
used for health. So we define with them together.
    Then we set indicators that are not just how our money will 
be used, but what they are going to do in that sector, because 
the goal of our money is really to leverage their budget and 
make it possible for them to spend more and better on 
education.
    So even though directly our money, of that amount $56.25 
million may go into education this year, we are looking at 
indicators that say are they increasing education as a 
percentage of GDP, are they increasing the number of girls in 
school, are they increasing the number of kids in school. So 
are they meeting those overall targets for these different 
sectors? And that is the second way we account for the money.
    Mr. Tierney. So it is an output sort of a measure as 
opposed to identifying dollar for dollar where it actually gets 
spent?
    Mr. Boucher. Yes. Are we catalyzing, accelerating the work 
in sectors that are important to us.
    Mr. Tierney. We are told by some of the witnesses that were 
here that the education budget of Pakistan is hovering 
somewhere around 2 percent of the gross domestic product, and 
that still falls--UNESCO's benchmark usually would recommend 
somewhere about 4 percent. Are they moving and trending in the 
right direction here?
    Mr. Boucher. They are. They spent $1.3 billion on education 
dollars in 2003. That was almost doubled to $2.4 billion in 
2006, and they plan to continue to double education and health 
expenditures as a percentage of gross domestic product by 2015. 
What we are trying to do is support that effort.
    Mr. Tierney. I am a little bit troubled with the way that 
we are accounting for this, only because we never seem to be 
able to nail down exactly that the money has been spent where 
we hope it is. We have those shared objectives, and then sort 
of if things look like they are tending somewhere then we are 
satisfied, but we never get to see whether all of the $200 
million goes where we want it to go. I would hope that we think 
of a better way to do that at some point, which is one of the 
reasons why we sort of went in when we did that bill and took a 
little more money for education.
    Mr. Boucher. Yes.
    Mr. Tierney. Because we really feel strongly that education 
gets more attention.
    How many USAID personnel that are focused on education are 
currently on the ground in Pakistan?
    Mr. Boucher. I have to check on that. I don't know the 
number.
    Mr. Tierney. I say that because off the record we heard 
one. That would be a little troubling. I would think they would 
need a larger presence, you know, in order to do something 
really meaningful on that and to make those numbers move in the 
direction in which we want them to move and to send a message 
clearly that we expect more to happen there.
    Mr. Boucher. One of the reasons we do some of this 
ourselves and some of it through the budget is because when we 
put the money into their budget and they are expanding 
education sector, it can do things like pay salaries for 
teachers, hire and train more teachers, buy books, providing 
lunch to kids in school--I mean, things that aren't really 
projects that we would carry out. They are things that they can 
do as part of their education programs, and expand, you know, 
use Federal money to expand the availability of books and 
better curricula to the provinces and things like that. So the 
money goes to almost slightly different purposes than what we 
would spend directly ourselves in projects.
    Mr. Tierney. And it seems we have to do a little bit better 
job on tracking where that is going to. Right now the 
indications we have are that, you know, we are still a long, 
long way to go in terms of teachers. We hear about the ghost 
schools----
    Mr. Boucher. Yes.
    Mr. Tierney [continuing]. And the opportunity there, and 
that is, I think, key to our long-range issue of how we are 
going to deal with it.
    Mr. Boucher. Yes.
    Mr. Tierney. Not just in Pakistan, but a whole host of 
different countries.
    Mr. Boucher. Yes.
    Mr. Tierney. What are we doing about providing good 
alternative education that doesn't push them back toward the 
sort of extremist Madrassas situation.
    Mr. Boucher. I learned a long time ago in Africa, when I 
was responsible for cold storage of vaccines in an AID project, 
you not only ask do you have a refrigerator, you ask do you 
have electricity.
    Mr. Boucher. Exactly.
    Mr. Tierney. When I was up in the tribal areas, you know, 
looking at some of these schools that we built with AID money, 
the question is: is the school done? Are there teachers? Are 
there books? And the answers are yes. We are careful about a 
lot of that.
    And I agree with you that some of these specifics of, you 
know, are they really expanding the availability of education 
as they spend more money, are important to track, as well.
    Mr. Tierney. Well, on our recent visit up in the Peshawar 
area and leading into the tribal areas there, we weren't 
convinced that you are very far along in putting this 
infrastructure together that you are going to need to really 
effectively spend the President's proposed program, so it may 
be that we need to take another trip out there before that all 
comes to fruition to see how that is going or whatever. I think 
the idea is good.
    Mr. Boucher. Yes.
    Mr. Tierney. I think the idea is excellent. The question 
is: is it going to be executable? We would like to work with 
you at least on that part.
    Can you give us a little run-down of what precautions the 
administration is taking to ensure that the military support 
money is actually going to the types of military equipment and 
purposes that effectively fight international terrorism, as 
opposed to some other purposes--for instance, Orion submarines 
and F-22 bombers and things like that actively look like they 
are shoring up against India than fighting international 
terrorism?
    Mr. Boucher. I think, sir, we do try to do both. I mean, we 
try to help Pakistan with legitimate defensive needs, with its 
ability to patrol in the Arabian Sea in part of NATO missions 
out there, to provide maritime security in that area. So we do 
try to help them with their sort of basic defensive needs, and 
that is a chunk of our money. That is pretty much what the $300 
million for foreign military financing goes to is a lot of 
those kind of things.
    But also some of that money and other things that we do--
buy night vision goggles, body armor, you know, equipment for 
troops that are in the war on terror. And then in addition, 
then you have the money that is the reimbursement for the 
expenses on the war on terror, and the Pentagon is in charge of 
getting receipts and making sure they know how that money is 
being spent in the right places.
    Mr. Tierney. I think there is a whole host of people here 
in the Congress that think those numbers, you know, ought to be 
swayed a little bit differently. There ought to be more toward 
international terrorism action and less toward the general part 
of it, which they already have their military designed and set 
up to do. But we will look at that as the budget comes through.
    Have you had the opportunity to talk to General McNeil in 
terms of what he sees going on, in terms of communicating what 
happens in his eyes at the cross-border movement between the 
Taliban from the Pakistani side to the Afghani side?
    Mr. Boucher. Sure.
    Mr. Tierney. Do you have regular meetings with him on that?
    Mr. Boucher. Yes.
    Mr. Tierney. And other intelligence officials, what they 
talk about in terms of them giving actual intelligence to the 
Pakistani side and the cooperation or lack of cooperation that 
they get back as a response to that?
    Mr. Boucher. Sure.
    Mr. Tierney. OK. I am a little surprised that you are still 
as positive about what is being done, because I have had 
conversations in depth on a regular basis with those people, 
and I don't get a very pleasant position----
    Mr. Boucher. I have talked to General McNeil. I think the 
Dutch general, General van Loon, was just in Washington. I 
don't know if you saw him. He has been the general for Regional 
Command South, and, you know, he was saying there are things 
going on on the Pakistani side that are helpful, that are 
important to us. That is all I am saying.
    I also know there is a regular flow of people across, that 
the ability to take refuge in Pakistan and regroup and organize 
has been a serious danger to our troops.
    Mr. Tierney. And serious questions about people getting 
information or intelligence and have it not be acted upon, that 
then obviously puts our people in jeopardy. That is not an 
irregular situation; it is a fairly common occurrence, at least 
what is reported to us.
    Mr. Boucher. It is something that happens, and it is an 
occurrence, and nothing ever quite happens as fast or 
effectively as we might like. But that doesn't mean abandon the 
effort. That means you continue to make it better.
    Mr. Tierney. Just some comments on the judicial situation 
that is going on over there. How do you see that evolving and 
winding up?
    Mr. Boucher. We have said that everybody needs to respect 
the decisions of the judicial process. There is a judicial 
process in Pakistan to handle these matters, and in the end 
everybody needs to respect that and let those decisions be made 
in a judicial manner. In the meantime, there are a lot of 
demonstrations. A lot of people I met the last time I was in 
Pakistan were out demonstrating and, you know, political 
parties are rallying. Part is just a reflection of the fact 
this is a very political year in Pakistan.
    Mr. Tierney. Do we have any diplomatic comments to make to 
President Musharraf when he sacked Chief Justice Chaudhry?
    Mr. Boucher. We asked a lot of questions. Again, it is 
going to be up to the Pakistani judicial system to decide if--a 
referral, it is called, referred charges to another judicial 
body--if the referral was warranted. I think we are going to 
have to respect that process ourselves.
    Mr. Tierney. Well, are we being firm and clear in our 
conversation with the Musharraf government that we expect them 
to also respect the process?
    Mr. Boucher. We have been very clear that everybody should 
do that, including the government, and that is what the 
government has pledged to do.
    Mr. Tierney. You made some comments in the Pakistani Times, 
I think it was last month, where you were talking about your 
belief that the media in Pakistan is free, so I thought that I 
would like to ask you about what you say about the recent 
reports about the government's detention of reporters, control 
of television coverage, and what appeared to many of us to be 
forms of intimidation that were initially started and pulled 
back eventually. How do you account for that?
    Mr. Boucher. We have said it was a bad idea and we are glad 
that it was pulled back, and we think our comments probably had 
something to do with the fact that it was pulled back.
    Mr. Tierney. And, last--I think it is last--A.Q. Khan. 
There was a little bit of discussion there. Now we are led to 
believe that he is under so-called house arrest, allowed to 
brunch and have tea with friends and family. Is that accurate? 
And what is your confidence level that the Pakistani nuclear 
secrets and materials are safe at this point? And what more 
ought Congress be doing to ensure their continued safety, if 
they are?
    Mr. Boucher. I think we are confident that the Khan network 
is out of business, that we have been able to get at it in a 
lot of parts of the world, that he is no longer operating kind 
of black marketing that he was doing in the past. I think we 
are confident that Pakistan has good control over its nuclear 
materials. It is something we keep a close eye on.
    Mr. Tierney. Are we making efforts to get in and question 
Mr. Khan, because I am sure that we must feel that he has 
significant information about other sales that he made prior to 
his detention, and that would be fairly useful to our efforts 
at nonproliferation.
    Mr. Boucher. We are always interested in getting 
information----
    Mr. Tierney. Are we getting any cooperation----
    Mr. Boucher [continuing]. From him and about his network.
    Mr. Tierney [continuing]. From Mr. Musharraf?
    Mr. Boucher. We have gotten good cooperation in terms of 
the flow of information to us and to the IAEA and to others 
around the world.
    Mr. Tierney. From questioning of Mr. Khan or from other 
sources?
    Mr. Boucher. From Pakistanis and their questioning of Mr. 
Khan.
    Mr. Tierney. But we have not been allowed access to him at 
this point?
    Mr. Boucher. No.
    Mr. Tierney. Mr. Ambassador, I want to thank you for all of 
the time that you have given us this morning.
    Mr. Boucher. Thank you.
    Mr. Tierney. And for your candor and your answers and for 
your objectivity, I guess, although I might argue that, again, 
I would like to see some more subjectivity into it. But I 
appreciate it very much. Thank you for coming.
    Mr. Boucher. Thank you very much, sir.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
